<html>
<title> - LEGISLATIVE HEARING ON H.R. 2383, H.R. 2243, H.R. 2388 AND H.R. 2470</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




  LEGISLATIVE HEARING ON H.R. 2383, H.R. 2243, H.R. 2388 AND H.R. 2470

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 2011

                               __________

                           Serial No. 112-25

                               __________

       Printed for the use of the Committee on Veterans' Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>









                  U.S. GOVERNMENT PRINTING OFFICE
68
454000                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
Vacancy
Vacancy

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      BILL JOHNSON, Ohio, Chairman

CLIFF STEARNS, Florida               JOE DONNELLY, Indiana, Ranking
DOUG LAMBORN, Colorado               JERRY McNERNEY, California
DAVID P. ROE, Tennessee              JOHN BARROW, Georgia
DAN BENISHEK, Michigan               BOB FILNER, California
BILL FLORES, Texas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.





                            C O N T E N T S

                               __________

                             July 20, 2011

                                                                   Page
Legislative Hearing on H.R. 2383, H.R. 2243, H.R. 2388 and H.R. 
  2470...........................................................     1

                           OPENING STATEMENTS

Chairman Bill Johnson............................................     1
    Prepared statement of Chairman Johnson.......................    33
Hon. Joe Donnelly, Ranking Democratic Member, prepared statement 
  of.............................................................    34
Hon. Jerry McNerney..............................................     2
    Prepared statement of Congressman McNerney...................    34

                               WITNESSES

U.S. Department of Veterans Affairs, Thomas Murphy, Director, 
  Compensation Service, Veterans Benefits Administration.........     4
    Prepared statement of Mr. Murphy.............................    34
U.S. Department of Defense, Hon. Elizabeth A. McGrath, Deputy 
  Chief Management Officer.......................................     6
    Prepared statement of Ms. McGrath............................    38
Disabled American Veterans, Jeffrey C. Hall, Assistant National 
  Legislative Director...........................................    23
    Prepared statement of Mr. Hall...............................    43
Filippi, Debra M., Former Director, U.S. Department of Defense/
  U.S. Department of Veterans Affairs Interagency Program Office.    22
    Prepared statement of Ms. Filippi............................    39
Veterans of Foreign Wars of the United States, Ryan M. Gallucci, 
  Deputy Director, National Legislative Service..................    25
    Prepared statement of Mr. Gallucci...........................    48

                       SUBMISSIONS FOR THE RECORD

U.S. Department of Labor, Veterans' Employment and Training 
  Service, statement.............................................    50

 
                   LEGISLATIVE HEARING ON H.R. 2383,
                   H.R. 2243, H.R. 2388 AND H.R. 2470

                              ----------                              


                        WEDNESDAY, JULY 20, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 9:03 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Johnson 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Johnson, Roe, Flores, Donnelly, 
McNerney, and Barrow.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Mr. Johnson. Good morning. This hearing will come to order.
    I want to welcome everyone to today's legislative hearing 
on H.R. 2383, the ``Modernizing Notice to Claimants Act,'' H.R. 
2243, the ``Veterans Employment Promotion Act,'' H.R. 2388, the 
``Access to Timely Information Act,'' and H.R. 2470, the 
``Ensuring Servicemembers' Electronic Records' Viability Act.''
    These bills we are discussing today are the result of 
months of input, work, research, and investigation.
    The ``Modernizing Notice to Claimants Act,'' which I 
introduced last month, makes several important steps toward 
streamlining part of the claims process that will contribute 
toward reducing the disability claims backlog.
    Section 5103 of title 38 currently requires the Secretary 
of Veterans Affairs to provide a claimant a written notice of 
responsibility that informs both the veteran and the U.S. 
Department of Veterans Affairs (VA) of their responsibilities 
regarding each claim. Furthermore, as written, this law 
requires a separate written notice of responsibility for any 
subsequent claim, even if that subsequent claim is covered 
under the original pending claim. Additionally, the section 
requires VA to make a reasonable effort to obtain private 
records relevant to a veteran's claim.
    The ``Modernizing Notice to Claimants Act'' would allow for 
the most efficient delivery for any notice, including 
electronic written responses. Additionally, the proposed 
changes will not require VA to provide an additional notice for 
a subsequent issue that is already covered under a previous 
claim. The bill would also define VA's ``reasonable effort'' to 
acquire a veteran's record to no less than two requests, and 
also encourage the veteran to play an active role in providing 
evidence for his or her claim. Lastly, if a veteran's claim can 
be adjudicated in the veteran's favor without additional 
evidence, there is no need for VA to acquire any further 
evidence.
    One of the primary effects of these changes would be a 
reduction in claims processing time by approximately 40 days.
    Often, we have laws on the books that date back many years 
and do not allow for utilizing all the tools at an agency's 
disposal. It is important that this Committee and the Congress 
revisit laws to ensure that they still achieve their original 
intent. By clarifying several key areas in the law, the 
``Modernizing Notice to Claimants Act'' reinforces 
Congressional intent and delivers a better service to veterans.
    Another bill I wish to mention in my opening remarks is 
H.R. 2388, the ``Access to Timely Information Act,'' introduced 
by Chairman Miller. The need for this clarifying legislation 
results from frequent obstruction by VA in providing necessary 
information to this Committee. And the bill's objective can be 
summarized as enabling the Legislative Branch to better conduct 
its oversight responsibilities.
    Even in requests for information that do not contain 
sensitive information, the VA often takes several weeks in 
providing responses, often demanding that the request be sent 
in the form of a signed letter. The longstanding agreement that 
was supposedly based off of VA policy had been that if a 
request from the Committee involved personally identifiable 
information, or PII, then the request would be sent in a signed 
letter. However, it has come to light that staff at VA 
inconsistently applies this policy and that the policy itself 
is not even in writing.
    After multiple requests over several months for a written 
policy from VA, nothing has been presented to the Committee. 
And the end result has been obstructive behavior that hinders 
this Committee's efforts to help our veterans. This bill 
clarifies that requests from Committee Members and staff are 
covered under the pertinent privacy laws with respect to 
sensitive information.
    This is not rocket science, and I am frustrated and 
disheartened that we have reached a point where we need this 
legislation. As I stated before, this bill will simply help us 
do our job. Past efforts at working with VA to establish a 
consistent policy have met the same type of resistance as the 
information request that I just discussed. And so we are taking 
the next step in fixing that problem.
    I appreciate everyone's attendance at this hearing.
    And I now yield to the Ranking Member for his opening 
statement.
    [The prepared statement of Chairman Johnson appears on p. 
33.]

            OPENING STATEMENT OF HON. JERRY MCNERNEY

    Mr. McNerney. Thank you.
    I want to thank the Chairman, Mr. Johnson, for holding this 
legislative hearing this morning. Having this Subcommittee 
conduct a legislative hearing is a little unusual, and I think 
it is a good idea, because it gives us a little more say in to 
what is going on here. And it will provide us the ability to 
conduct oversight and also to review legislation that affects 
many issues that fall within our own jurisdiction.
    Today's hearing includes several bills. Among others, we 
will evaluate a proposal to change policies affecting claimants 
seeking benefits. We will also discuss legislation that 
addresses ongoing concerns regarding the need to improve the 
Interagency Program Office (IPO).
    In addition, one of the bills included in today's hearing 
is H.R. 2243, the ``Veterans Employment Promotion Act,'' which 
I introduced. My bill directs the Secretary of Labor to make 
public veterans' employment records data reported by the 
Federal contractors and subcontractors.
    In the past, this Subcommittee has heard concerns from 
veterans service organizations and other stakeholders about 
compliance with veterans hiring policies. The purpose of the 
VETS-100 and the VETS-100A reports is to ensure that the 
Federal contractors comply with relevant laws.
    Through this report, the contractor submits certain 
information to the U.S. Department of Labor (DoL), including 
information about new hires who are veterans. By making the 
information contained in these reports publicly available, my 
bill increases much-needed oversight and accountability. This 
bill is a step in the right direction and will help us as we 
continue to seek ways to improve enforcement of Federal 
contractor compliance.
    Thank you, Mr. Chairman, and I look forward to today's 
discussion of H.R. 2243 and the other bills we are considering. 
I yield back.
    [The prepared statement of Congressman McNerney appears on 
p. 34.]
    Mr. Johnson. I thank Mr. McNerney for yielding back.
    I would just like to comment on one point that he made. It 
is unusual for this Subcommittee, the Oversight and 
Investigations Subcommittee, to hold legislative hearings. That 
should be an indicator of the seriousness that this Committee 
takes its role and responsibility in making sure that our 
veterans are cared for. And you can depend and our veterans can 
depend that we are going to stay the course to make sure that 
we get some action and some results from some of these 
outstanding issues.
    And, with that, I invite the first panel to the witness 
table.
    On this panel, we will hear testimony from Thomas Murphy, 
Director of Compensation Service at the Veterans Benefits 
Administration (VBA) at the Department of Veterans Affairs. Mr. 
Murphy is accompanied by the Honorable Roger Baker, Assistant 
Secretary for Information and Technology at the Department of 
Veterans Affairs, and John H. ``Jack'' Thompson, Deputy General 
Counsel at the Department of Veterans Affairs. We will also 
hear on this panel from the Honorable Elizabeth A. McGrath, the 
Deputy Chief Management Officer at the U.S. Department of 
Defense (DoD).
    Both of your complete written statements will be made part 
of the hearing record.
    Mr. Murphy, you are now recognized for 5 minutes.

 STATEMENTS OF THOMAS MURPHY, DIRECTOR, COMPENSATION SERVICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
 AFFAIRS; ACCOMPANIED BY HON. ROGER BAKER, ASSISTANT SECRETARY 
FOR INFORMATION AND TECHNOLOGY, AND CHIEF INFORMATION OFFICER, 
   U.S. DEPARTMENT OF VETERANS AFFAIRS; AND JOHN H. ``JACK'' 
 THOMPSON, DEPUTY GENERAL COUNSEL, OFFICE OF GENERAL COUNSEL, 
U.S. DEPARTMENT OF VETERANS AFFAIRS; HON. ELIZABETH A. MCGRATH, 
  DEPUTY CHIEF MANAGEMENT OFFICER, U.S. DEPARTMENT OF DEFENSE

                   STATEMENT OF THOMAS MURPHY

    Mr. Murphy. Thank you, Mr. Chairman and Members of the 
Subcommittee, for the opportunity to testify and present VA's 
views on several legislative items of great interest to 
veterans and the Department.
    Joining me today are Roger Baker, Assistant Secretary for 
Information and Technology, and Jack Thompson, Deputy General 
Counsel.
    H.R. 2383, the ``Modernizing Notice to Claimants Act,'' 
would amend section 5103 to authorize the VA to use the most 
efficient means to provide required notice to claimants. This 
bill would also amend section 5103A to clarify VA's duty to 
assist claimants in obtaining relevant private records.
    VA fully supports this bill, which would significantly 
enhance its efficiency in carrying out its duty to assist and 
notify under the Veterans Claims Assistance Act (VCAA). VCAA 
requirements have had the unintended effect of complicating and 
unnecessarily delaying the claims process, while confusing 
veterans and their dependents. This bill represents a valuable 
step forward in addressing these concerns.
    Section 2 of the bill would provide increased flexibility 
in how VA delivers notice to claimants. It would authorize VA 
to provide notices through the most expeditious means 
available, including electronic communications, which is 
critical during this time of transformation to a paperless 
claims process. By eliminating the language that directs VA to 
issue VCAA notices upon receipt of a complete or substantially 
complete application, section 2 of this bill would also 
significantly increase efficiency in the beginning stages of 
the claim process.
    Sections 2 and 3 of this bill would add provisions to both 
section 5103 and 5103A to make it clear that VA's duty to 
notify or duty to assist does not apply to any claim or issue 
when VA can award all the benefits sought entitled under the 
law. This little change can take months out of the development 
process, thereby speeding delivery of benefits to veterans.
    Section 3 would direct VA to encourage claimants to submit 
private medical evidence if such submission does not burden the 
claimant. VA would continue to assist the claimant if he or she 
requests such assistance. This approach would empower the 
claimant to take an active role with VA in preparing his or her 
claim for a decision.
    In many instances, veterans want to procure their own 
records and can do so more quickly than VA. In crafting 
regulations to implement this authority, VA would emphasize the 
value in partnering with the claimant while, at the same time, 
ensuring that they understand VA's readiness to assist as 
necessary. This approach will assist VA in engaging veterans 
earlier in the process.
    H.R. 2243, the ``Veterans Employment Promotion Act,'' we 
defer this to the Department of Labor.
    H.R. 2388, the ``Access to Timely Information Act,'' would 
amend title 38 and also effectively amend the Privacy Act to 
require VA to disclose sensitive personal information to the 
Chairs and Ranking Members of the House and Senate Veterans' 
Affairs Committees and Subcommittees and their designees. 
Because the bill would diminish the privacy rights of veterans 
who deserve the same information protection enjoyed by other 
Americans, we strongly oppose its enactment.
    Current laws are intended to ensure that the privacy rights 
of individuals are respected during the exercise of legitimate 
Congressional oversight. In order to document and ensure the 
validity of such requests, VA has a clearly defined process. 
This creates a record that can be used in the event that VA's 
authority to disclose the information is later questioned.
    This latter point is significant, in that the penalties for 
unlawful disclosure can be severe. An agency employee who 
discloses information in violation of an applicable 
confidentiality statute or regulation may be subject to 
criminal or civil penalties. Furthermore, the Department may be 
subject to civil liability under these provisions.
    Veterans Affairs' Committee staff frequently request 
veterans' medical records, which contain among the most 
sensitive and private information imaginable. Because of social 
stigma associated with many medical and psychiatric conditions, 
patients often conceal their illness and treatment from their 
employers and even their immediate family. Any release of 
veterans' health information outside the Department, even when 
permitted by statutory exception, has the potential for 
undermining veterans' trust in VA. We cannot support 
legislation which would in any way diminish the existing legal 
protections this information rightfully enjoys.
    H.R. 2470, the ``Ensuring Servicemembers' Electronic 
Records' Viability Act,'' would amend the Wounded Warrior Act 
to alter the role, functions, and oversight of the Interagency 
Program Office of the DoD and VA with respect to electronic 
health records. It would also transfer control and 
responsibility of vital and sensitive programs for VA's 
electronic health records away from the clinicians and VA IT 
specialists who have made it such a success.
    While the VA agrees that leadership and accountability will 
be vital to delivering an integrated Electronic Health Record 
(iEHR), VA opposes H.R. 2470 as written. The bill would alter 
VA-DoD infrastructure currently in place, with no discernible 
benefit.
    H.R. 2470's transfer of control of VistA to the IPO would 
shift all responsibility for the development, implementation, 
and sustainment of all electronic health records systems and 
capabilities away from VA to the IPO. This will create 
disruption and uncertainty in the management of the most vital 
set of tools VA uses to deliver world-class care for our 
veterans.
    While we have strong concerns regarding this bill, VA is 
always open to discussing our joint efforts with our DoD 
partners to advance iEHR capabilities and the important work of 
the IPO and the Committee.
    This concludes my statement. Thank you for the opportunity 
to testify today. I would be happy to entertain any questions 
you or other Members of the Subcommittee may have.
    [The prepared statement of Mr. Murphy appears on p. 34.]
    Mr. Johnson. Thank you, Mr. Murphy.
    Ms. McGrath, you are now recognized for 5 minutes.

             STATEMENT OF HON. ELIZABETH A. MCGRATH

    Ms. McGrath. Good morning, Chairman Johnson, Ranking Member 
Donnelly, and Members of this Committee. Thank you for 
including the Department of Defense in today's discussion 
regarding your recently introduced bill, ``Ensuring 
Servicemembers' Electronic Records' Viability Act,'' H.R. 2470, 
to improve the electronic health information systems and 
capabilities of the Department of Defense and Department of 
Veterans Affairs.
    We do truly appreciate this Committee's desire to be 
helpful in strengthening the role of the Interagency Program 
Office for electronic health records. However, the Department 
of Defense does not support H.R. 2470 as currently written, but 
looks forward to working with this Committee to ensure we have 
the right balance of authority, accountability, and focus for 
the Interagency Program Office.
    We believe that existing legislation on this subject 
provides sufficient authority and flexibility to the 
Secretaries of Defense and Veterans Affairs to effectively 
administer the integrated Electronic Health Record Way Ahead. 
Specifically, section 1635 of the National Defense 
Authorization Act for 2008 (NDAA) established the IPO and 
vested it with significant authority.
    Since its establishment, we have leveraged that authority 
to successfully deliver capabilities in two specific health 
information technology areas: the Virtual Lifetime Electronic 
Record (VLER) and the James A. Lovell Federal Health Care 
Center in north Chicago. With the daily focus on delivery-
required capability for north Chicago, the IPO is well-
positioned to identify and mitigate issues, enabling a 
successful opening of the facility in the fall of last year and 
a smooth transition from the Great Lakes Naval Hospital into 
the new center. We recognize that there is more to do, but we 
believe we have the right structure in place.
    Additionally, in creating a common ground and way ahead for 
VLER, the IPO is essential in the establishment of an effective 
governance structure, including the establishment of executive 
committees, senior management committees, and also establishing 
the strategic plan with milestones and deliverables to ensure 
that we have our common collective focus on a joint health IT 
strategy.
    The VLER Concept of Operations (CONOPS) was also identified 
and established with specific goals and issues, milestones and 
timelines, to hold us all collectively accountable, and to lay 
the foundation for success in a joint interagency master 
schedule.
    And, finally, the two departments are currently updating 
the IPO's charter to reflect the directions of the Secretaries 
of Defense and Veterans Affairs and take advantage of the full 
authority provided in the legislation to ensure that we both 
maintain focus on delivering of the joint common platform based 
on standards and common practices and processes that achieve 
the interoperability that we collectively desire. This would be 
as opposed to focusing on the sustainment of a legacy 
environment, which may take our eye off the ball.
    The revised charter will be complete this summer, and we 
look forward to sharing it with this Committee. The governance 
structure agreed to by the Secretaries for the integrated 
health record reflects the pivotal role of the IPO as the 
central program office responsible and empowered for delivering 
capability.
    Thank you again for the opportunity to testify today, and I 
look forward to continuing the dialogue in the future.
    In short, DoD and VA are both counting on the IPO, under 
its governance model, and acting with the intent of the 
original legislation to achieve the goal: our joint vision of a 
modern electronic health record that works seamlessly across 
our departments.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. McGrath appears on p. 38.]
    Mr. Johnson. Thank you very much, Ms. McGrath.
    At this time, I would like to thank Ranking Member 
Donnelly. He was doing the people's business and came in a 
little after we got started.
    Do you have any opening comments that you would like to 
make before we start questioning?
    Mr. Donnelly. The only opening comment I would like to make 
is: Thank you, Mr. Chairman. I look forward to the discussion 
of these bills.
    And H.R. 2470, a bill which I recently introduced, we 
believe will increase the authority given to the IPO.
    So, with that, I will turn it back over to you, sir.
    Mr. Johnson. Thank you very much.
    And at this point then, we will begin with the questioning.
    Mr. Murphy, based on past testimony to the House and Senate 
VA Committees and the input received by VA, how do you feel the 
Modernizing Notice to Claimants Act would be received by the 
veterans service organization (VSO) community?
    Mr. Murphy. Mr. Chairman, I went back and did some research 
in preparation for this hearing today and looked back through 
from 2008 forward The Independent Budget and testimony provided 
by various veterans service organizations. And, in each case, I 
found that they have come out in support of the very provisions 
that are in this bill.
    And I will give you a couple examples out of the 2012 
Independent Budget: ``In order to support efforts to encourage 
the use of private medical evidence, Congress should also 
consider amending 38 U.S.C., section 5103A, to provide that 
when a claimant submits private medical evidence, that that 
evidence is a component credible, probative, and otherwise 
adequate for rating purposes. The Secretary shall not also 
request such evidence from a VA health care facility.''
    And this is just one example that goes through the last 4 
years of testimony that I see is in support of this bill.
    Mr. Johnson. Okay, good. I take it, then, that--you just 
named one--there are specific examples where these changes have 
been requested by the VSOs, such as The Independent Budget?
    Mr. Murphy. Yes, that is correct, Mr. Chairman.
    Mr. Johnson. Okay.
    Mr. Murphy, do you perceive anything in this bill affecting 
court precedents related to claims processing and disability 
ratings?
    Mr. Murphy. No, sir, I do not.
    Mr. Johnson. Would anything in this bill incentivize or 
allow VA to give a minimum disability rating when a higher 
rating might apply?
    Mr. Murphy. No, sir, absolutely not.
    The advantage of this bill is and the challenge to VA is 
for us to figure out how to preserve all rights, entitlements, 
benefits, and notices that the veteran has, but take out some 
of the administrative times in here, reducing that timeline 
that it takes in order to deliver that same set of benefits to 
veterans.
    And I have to give you an example of the fully developed 
claim process, which we have been running for the last year or 
so. We have done in excess of 5,000 cases. And in these cases, 
where the private medical evidence was submitted up front with 
the claim, we have cut our processing time, average days to 
complete those claims, by more than 50 percent. And this bill 
drives toward that very process.
    Mr. Johnson. Okay. Thank you.
    While I know that the second panel's testimony was 
embargoed until this morning, would VA be willing to respond to 
the concerns about this bill raised by the members of that 
panel?
    Mr. Murphy. Yes, sir, we would be happy to take their 
testimony for the record and provide VA's response.
    [The VA subsequently provided comments on the Disabled 
American Veterans (DAV) and the Veterans of Foreign Wars of the 
United States (VFW), which will be retained in the Committee 
files.]
    Mr. Johnson. Okay.
    All right. Let's talk about Congressional inquiries for 
just a minute. In your testimony regarding H.R. 2388, you state 
that it has long been interpreted to mean only the chairpersons 
who have oversight authority or acting under a grant of 
authority from the Committees and, therefore, can receive 
disclosed information under the Privacy Act and title 38.
    When was this interpretation formulated? And is it in 
writing?
    Mr. Murphy. On this matter, I have to defer to Mr. Thompson 
from VA General Counsel.
    Mr. Thompson. Sir, that reference is to a Department of 
Justice opinion that was written in 2001. And I would be glad 
to supply that for the record.
    Mr. Johnson. I would appreciate that. When do you think you 
can get that?
    Mr. Thompson. This afternoon.
    Mr. Johnson. Okay.
    Mr. Thompson. Yes, sir.
    [The VA subsequently provided the information, which will 
be retained in the Committee files.]
    Mr. Johnson. If chairpersons are the only ones acting under 
a grant of authority from the Committees, then under what 
authority does VA consider staff members to be acting?
    Mr. Murphy. Same response, sir.
    Mr. Thompson----
    Mr. Johnson. The staff members are under the authority of 
the chairmen. So if chairpersons are the only ones, according 
to your interpretation, the Justice Department's 
interpretation, as acting under a grant of authority from the 
Committees, then under what authority does the VA consider that 
staff members are acting?
    Mr. Thompson. Certainly, staff members act for the 
Committee, and report to and work for the Committee. The 
Department of Justice opinion is that, under House rules, under 
Senate rules, only the chairpersons of the Committees are 
authorized to act on behalf of the entire Committee. The law 
authorizes disclosure to the Committee, and, therefore, the 
Department of Justice says the requests have to emanate from 
the chairmen.
    Mr. Johnson. I look forward to receiving that Justice 
Department opinion.
    I will yield now to the Ranking Member for his questions.
    Mr. Donnelly. Thank you, Mr. Chairman.
    And this would be for Mr. Baker or Ms. McGrath, either one.
    What has been the driver behind the recent attempts to 
empower the IPO? And if this Public Law 109-461, if it was 
passed 3 years ago, why are we just now beginning to attempt to 
improve the IPO?
    Mr. Baker. I believe the primary driver, at this point, is 
the two Secretaries' agreement that the two departments should 
establish a single, common electronic health record. If we go 
back to the President's directive in 2009 that we move forward 
with a virtual lifetime electronic record, we have made 
progress on that. But what the Secretaries recognized last fall 
was that we needed to achieve agreement and move forward on a 
single, common electronic health records system between the two 
departments.
    It is their intent, expressed in a memorandum, that the IPO 
structure be used as the point, and the implementation point, 
for that new electronic health records system. And that is, in 
fact, what Ms. McGrath and I are driving, under direction from 
the Secretaries.
    Mr. Donnelly. Are you aware--and, again, Mr. Baker or Ms. 
McGrath--that the former director has retired, the deputy has 
been recently reassigned, and is this where we are right now?
    Ms. McGrath. Certainly we are aware of the current state of 
the population of the IPO.
    If I could just add to Mr. Baker's comments a moment ago, 
as I mentioned in my opening remarks, the IPO has been focused 
on the successful opening and delivery of the capabilities 
there in north Chicago, in addition to the Virtual Lifetime 
Electronic Record. In our two organizations, looking forward 
toward, I will say, our modernization efforts for the 
electronic health record, we have made the determination to 
take a very joint approach. And those decisions were made 
starting in December and through the last few months. As this 
Department, DoD, went through our analysis of alternatives, we 
are utilizing the IPO; we are adding to what we currently had 
them focused on.
    Roger mentioned that he and I are both very active in terms 
of the oversight of the activities with all of those things--
north Chicago, VLER, and the integrated electronic health 
record. We have established effective governance surrounding 
not only the IPO but in total, to ensure that we have the 
functional representation at the table where they need to be, 
as well.
    So I don't view this necessarily as new as much as I do as 
an evolution based upon the decisions that the departments have 
made, fully taking advantage of the authorities in the 
legislation that does exist.
    Mr. Donnelly. Let me ask you this. When the IPO was 
created, there were 22 billets, with 2 senior executives. And 
as of the present time today, there are 8 full-time people, 
with both directors departed. Why are we in this spot?
    Ms. McGrath. So, to look at the current population of the 
IPO I think is perhaps a little bit incomplete, given the fact 
that, at least within the Department of Defense, we also have 
efforts such as an office established for an Electronic Health 
Record Way Ahead program office.
    What we are doing is capitalizing on not only the IPO 
assets but also those other assets that were previously focused 
on a DoD-unique capability. And we are moving all of those into 
the IPO so that it has both the right numbers and skill sets to 
ensure a successful program office. We are doing an 
organizational assessment, just like you would for any program, 
to say, what are the right skills and people I need in certain 
jobs? And what is the right mix of both functional, technical, 
DoD, and VA to ensure that that is positioned for success.
    And so, although the numbers might not appear, I will say, 
to be complete, the rest of the story includes the fact that we 
have people working in both organizations under both my and 
Roger's direction to ensure that we are focused on having all 
those piece parts in place to deliver a successful capability.
    Mr. Baker. I believe an important point there, Congressman, 
is that the DoD has named one of their most senior and, 
certainly, in my view, one of their best Senior Executive 
Service's, the Acting Director for the IPO moving forward, Mr. 
Wennergren. He is Ms. McGrath's deputy. That has been taken 
throughout both organizations as a recognition of where the two 
Secretaries intend to go with the IPO moving forward on the 
iEHR.
    Mr. Donnelly. Is the Acting Director, is he or she 
currently in the Rosslyn headquarters full-time now?
    Mr. Baker. I see him mostly in the Pentagon as we get 
together to talk about the EHR meetings, where all of us go for 
those meetings.
    Mr. Donnelly. Has he met with the organization yet, do you 
know?
    Mr. Baker. I do not know.
    Ms. McGrath. So, we meet on a very routine basis, and the 
IPO participates in all of our meetings.
    Mr. Donnelly. Thank you, Mr. Chairman.
    Mr. Johnson. Thank you, Mr. Donnelly.
    At this time, we will go in order of arrival. Mr. Flores, 
do you have any----
    Mr. Flores. Mr. Chairman, thank you. I have no questions. 
You asked my question about H.R. 2388, so I would yield to any 
other Member that has questions.
    Mr. Johnson. I do have some questions, but I was going to 
hold it for a second round. But if you have no questions and 
you would like to yield your time to Dr. Roe, we can go 
directly there.
    Okay. Dr. Roe.
    Dr. Roe. Thank you.
    First of all, I want to introduce a friend of mine, Bill 
Darden, from my hometown of Johnson City, Tennessee, who is in 
this meeting today.
    And, Bill, we are glad to have you here.
    Back to the IPO, you know you are a first-term Congressman 
when you get to go to Great Lakes, Illinois, in January, which 
I did last Congress. And we looked at the interoperability of 
the record then. To be honest with you, I was underwhelmed at 
what had been accomplished. And I have gotten no further 
follow-up and feedback, and I would like to.
    Because I think what you said, Mr. Donnelly, was correct, 
and I wanted to follow up with that a little bit, because I 
haven't seen what was accomplished and I think it was a good 
idea to combine the VA and the Great Lakes Hospital. Does that 
record work at all, or do we need to make another trip so we 
can get another look and see? And I would prefer, this time, to 
go when it is warm. But I do want to know if that works.
    Is it working now? It will be 2 years this coming January, 
so it was 19 months ago when I was there.
    Mr. Baker. Congressman, thank you.
    As you recall, I was freezing on that trip, along with you 
and----
    Dr. Roe. Yes.
    Mr. Baker [continuing]. Several other folks, I believe Mr. 
Herbert.
    Large parts of the IT are working, at this point. They were 
working at the point where we moved into the facility. The 
medical single sign-on, so that when a clinician pulls up a 
patient record in one medical records system, if they look at 
something in the other medical records system, that we know it 
is the same patient has been implemented.
    Single patient registration has been implemented----
    Dr. Roe. How long does that wind-up take? And the reason I 
get into the weeds with this is because if you are seeing 30 
people a day or 25 people a day and it takes you 2 minutes to 
wind up, which doesn't sound like much but that is an hour a 
day just to get on the computer.
    I have implemented an electronic medical records system. It 
may be why I am in Congress now, because that thing was so 
frustrating. Are you able to get on?
    Mr. Baker. My understanding is the answer to that is, yes, 
Congressman. I have not looked at it directly, but the 
clinicians that I have talked to have been very happy with that 
capability. As you are probably aware, certainly VA clinicians 
are pretty vocal about things they don't like on the IT with 
me, and I have not heard that kind of feedback from our 
clinicians, that those pieces are slow for them.
    Dr. Roe. So they can access the record, they can pull it up 
in a timely manner?
    Mr. Baker. Right. Correct.
    Dr. Roe. And what I saw happening when we were up there 
before was that you had to go to two different systems to be 
able to get the information that you needed. I mean, you could 
get a blood count. Well, you can do that very simply; I mean, 
those systems have been available forever.
    Are they actually able to work now? Because I would like to 
go see if it does. If it does, we can implement it across the 
whole system pretty quickly.
    Mr. Baker. I believe that it works pretty well. As you 
know, there are a few things that have not been delivered, in 
particular on the pharmacy and the consults side. But items 
like interoperability and orders portability on lab and--I am 
trying to--there is one other area--have been implemented 
between the two medical records systems.
    The main thing that occurs is a physician primarily works 
inside of one of the medical records systems. If necessary to 
look at the other one, that is what the single sign-in----
    Dr. Roe. Well, if a sailor gets hurt over at the Great 
Lakes side and comes over to the VA hospital, how does that 
work?
    Mr. Baker. I believe that the clinician is going to be 
working inside of VistA, inside the facility. A lot of it 
depends on what clinic the sailor is seen in, because the 
functionality is pretty much defined as one medical records 
system or the other based on which clinic you are being seen 
in. And so I believe, in general, they are going to be seen and 
the record is going to be kept inside of the records system for 
that clinic and then moved to the other records system through 
the----
    Dr. Roe. So the VistA; when the sailor went back to duty, 
how would the medical officer pull that up?
    Mr. Baker. I believe that is going to be through the 
Bidirectional Health Information Exchange.
    Dr. Roe. Well, I would like to see that work.
    Ms. McGrath. Sir, if I could just add, the access to the 
information is available to the clinicians. They are still 
housed in the two separate solutions, because they are not yet 
integrated solutions. That is the biggest difference between 
how things work today and where we are aiming for tomorrow.
    So, in north Chicago, we moved the two organizations 
together, but we retained our legacy environment. And we are 
trying to ensure that we have communications, robust 
communications, real-time, so that the clinician sees the 
information.
    Where we are heading in the future with this integrated 
electronic health record is to adopt the same data standards 
and achieve data interoperability so that it is a single record 
when the clinician pulls up the information. So we are not 
talking about things like Bidirectional Health Information 
Exchange. It is real-time access----
    Dr. Roe. ``Bidirectional,'' the English language 
translation is two different records, right?
    Ms. McGrath. Two different sources.
    Dr. Roe. Yep. That is what I thought.
    I will yield back. Will we get a chance to ask some more 
questions? Okay, thank you.
    Mr. Johnson. Yes. For everyone's information, I suspect we 
will have a second round of questions.
    At this time, Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    And I thank the panel for coming today.
    One of my pet peeves is the backlog. And, Mr. Murphy, I 
would like to know what the VA is doing to reduce the backlog 
of claims by adjudicating through the electronic written 
responses. Is there anything that you are doing to make this 
better?
    Mr. Murphy. I guess I don't understand the question. The 
written responses as it is--are we talking about through this 
bill here?
    Mr. McNerney. In the current law.
    Mr. Murphy. In the current law. Okay.
    We are in the process of full development of the VBMS, 
Veterans Benefits Management System, which is essentially the 
replacement for what is largely a paper process today. And it 
is literally--I am sure you have seen our regional offices--
volumes upon volumes of paper. This process takes it, allows us 
to gather the information in an electronic format, process it 
in an electronic format, run it through an electronic 
knowledge-based decision matrix, put the entire package in 
front of an experienced rater to have the human interaction and 
to make sure that the computer is driving to the right 
decision, and then adjudicate the case.
    This is in direct support of the Secretary's goals of no 
claim over 125 days with 98 percent accuracy by 2015. And this 
system and all of the pieces that are integrated into it are 
what is going to solve this breaking the back of the backlog.
    Mr. McNerney. The word ``solve'' is a big word. But there 
are going to be people that are going to resist that. I mean, 
as Dr. Roe just mentioned, people are going to resist going to 
electronic means. Are the veterans that are submitting these 
forms aware of the help that is available, getting their 
information on electronic media?
    Mr. Murphy. We are facing a large education campaign, 
getting veterans to understand, that with no giving up of their 
rights, benefits, entitlements, notices, et cetera, that the 
electronic process will allow them to receive the same thing 
that they are getting from us today in a significantly reduced 
time frame.
    Mr. Baker. Congressman, if I could, there are two main 
parts of, if you will, the intake piece of VBMS. The first 
part, where we are working with National Archives, is a smart 
scanning approach, where we take the paper that is coming and 
scan it in and harvest the data off it so that we have actual 
data to feed into the automation system.
    The second piece is, as you point out, to encourage 
veterans to actually have the information be electronic at the 
source. So bringing them to a Web site for what has often been 
phrased as a ``TurboVet'' approach to filling out the 
information necessary, using what we call DBQs, or the 
disability benefits questionnaires, to make certain that they 
are providing a fully completed claim so that it can be 
adjudicated quickly. And, as Mr. Murphy points out, there is a 
large education piece to that.
    But in the beginning, as we roll this forward, we are 
anticipating the veteran still largely operating in paper, if 
they choose to, and with us going back and forth with them in 
paper. But inside the VBA, it will be all electronic. All those 
images will be scanned.
    Mr. McNerney. Thank you.
    Mr. Murphy, you have deferred to the Department of Labor to 
provide views on H.R. 2243. Are there any comments you are 
prepared to offer in broad terms about the issue of improving 
Federal contractor compliance?
    Mr. Murphy. No, Congressman, we are not prepared at this 
time.
    Mr. McNerney. Okay.
    Ms. McGrath, what additional steps would you recommend for 
improving coordination between the two departments, the 
Department of Veterans Affairs and the Department of Defense?
    Ms. McGrath. With regard to the electronic health record?
    Mr. McNerney. Correct.
    Ms. McGrath. I actually think that a lot of the steps we 
have taken in the last few months have driven our two 
organizations very close together with regard to focusing on 
the capabilities that we need, bringing the functional process, 
architecture, and the technical folks together so that we are 
joined in every aspect of our Way Ahead.
    The governance model that we have presented and has been 
approved by the Secretaries, I think positions us well for 
every aspect of delivering that capability. I think oversight, 
rigorous oversight, both within our respective departments and 
by the Members of Congress, will be critical to ensure that we 
continue to keep and maintain the focus to deliver these joint 
capabilities so that we aren't, I will say, deferring or coming 
off the path that we are currently on.
    So I really do think there is a super-strong partnership 
between these two organizations in every aspect of the 
development and delivery of the capabilities.
    Mr. McNerney. Well, you certainly have chosen the right 
words to say.
    I will yield back.
    Mr. Johnson. Thank you for yielding back.
    I want to continue that line of questioning, because the 
cooperation and the sense of urgency that you say in your words 
that exists don't show up in the results. The IPO has been in 
existence for approximately 4 years, yet today we see the 
organization is not fully staffed and still we have no record 
integration.
    When was the Acting Director appointed?
    Mr. Baker. I believe that was effective with the June 23rd 
meeting between the Secretaries.
    Mr. Johnson. So it has just been within the last few weeks.
    Mr. Baker. Within the last month, yes.
    Mr. Johnson. Within the last month. Okay.
    And, you know, I will submit to you that this lack of a 
sense of urgency, and that we are 4 years into this process and 
we still have no record integration, we still don't have an IPO 
that is fully staffed, that is just further indication of the 
lethargic response that we get on IT-related issues in solving 
our veterans issues. So I am still very concerned about that.
    I want to go back to the issue of responding to requests 
for information. Mr. Murphy, you indicated that many of the 
requests from the Committee staff--or that they frequently 
request veterans' medical records. How many of the requests do 
you receive in a year that require medical records?
    Mr. Thompson. Sir, I am not sure that there is a tally on 
that.
    Mr. Johnson. Okay. Can you find out and report back to us?
    Mr. Thompson. I am not sure a log is kept of that, but I 
will----
    Mr. Johnson. Well, certainly, if that is a concern of the 
VA, that the staff is requesting medical records, there would 
be some record of that.
    Mr. Murphy. We can provide a response to that one, yes, Mr. 
Chairman.
    [The VA subsequently provided the following information.]

    [The attached documents will be retained in the Committee files.]

    Question:
    Please provide historical information on VA responsiveness to 
Committee oversight requests.

    Response:
    Calendar year 2011 to date, the Department of Veterans Affairs (VA) 
has received approximately 76 requests for information (RFI) from the 
Oversight and Investigation Subcommittee of the House Committee on 
Veterans many of which were communicated by phone call or e-mail. Of 
those requests, 12 involved medical records and/or other privacy-
protected information.
    VA may only disclose such information relating to an individual's 
privacy in response to: (1) a request from Congress or from a committee 
or subcommittee of either house of Congress in connection with a matter 
within its oversight jurisdiction, (2) an inquiry from a member of 
Congress made at the request of a constituent, or (3) a request from a 
member of Congress or a staff member processed under the Freedom of 
Information Act (FOIA), 5 U.S.C. Sec. 552.
    Additionally, such a document, which in its original form contains 
privacy-protected information, may be disclosed if the document is 
redacted such that all information that would render the document 
privacy-protected is omitted.
    Of the 12 RFIs relating to privacy-protected information, below 
shows the number for each of the excepted categories mentioned above:

        Outstanding: 3
        Redacted: 2
        Chairman's Letter: 3
        Privacy Act Release: 3
        Not provided/Excepted categories not met: 1
        Average response time: 32 calendar days
        Shortest response time: 1 calendar day
        Longest response time: 75 calendar days

    Instances that may affect response times include when inquiries 
have been amended in scope, when clarifications were needed, or when 
discussion was necessary on the prerequisites for providing privacy-
protected information.

    Mr. Johnson. Okay. I would appreciate that.
    What about instances where no medical records are 
requested? Because, as I indicated in my opening statement, 
we've got situations where the information is relatively 
benign, administrative, and yet we still get pushback from the 
VA requiring that the Chairman sign a letter of request.
    Mr. Thompson. Sir, our testimony goes to requests that 
involve Privacy Act-protected information.
    Mr. Johnson. Okay. I hear that.
    Mr. Thompson. Yes.
    Mr. Johnson. But what I am asking is, why, when it does not 
require Privacy Act information, do we still get pushback?
    Mr. Thompson. Well, you should not be getting pushback on 
the basis that the law precludes its disclosure.
    Mr. Johnson. Well, vis-a-vis the need for this legislation, 
because, apparently, we still do get pushback, even though you 
say that the law should not preclude that.
    When was the last time that VA's longstanding policy in 
this regard was transmitted to the House, to this Committee? We 
have asked for the policy, and we have yet to receive a written 
response. So when can we expect to see a written response on 
this policy?
    Mr. Thompson. We can certainly provide a letter 
describing----
    Mr. Johnson. When?
    Mr. Thompson. Very shortly, sir.
    Mr. Johnson. When? Give me a date.
    Mr. Thompson. How about tomorrow? Does that do it?
    Mr. Johnson. Yep. That would be great, Mr. Thompson.
    Mr. Thompson. Good.
    Mr. Johnson. Because we have asked for it repeatedly, and 
we get the same answer, ``We will provide it,'' and it never 
shows up. So by tomorrow I am going to expect it.
    Mr. Thompson. Okay. I haven't been asked before.
    Mr. Johnson. Okay.
    Let's go back to the IPO issue. Ms. McGrath, you mentioned 
in your testimony that the revision of the IPO charter 
currently is under way. What can you tell us about why this 
revision was needed? Why is the charter being revised?
    Ms. McGrath. The charter is being revised to include the 
focus of the integrated electronic health record, as recently 
decided by the two Secretaries. I also mentioned that we are 
ensuring that we have the right construct in terms of skill 
sets, that is the right technical, functional, business 
operating, and implementation change management types. It is a 
very, what I will call, standard practice in terms of ensuring 
that we establish the foundational footprint prior to 
populating it with additional skill sets.
    I should also mention, to the gentleman's comment or 
questions earlier, we have people--the IPO is a piece of the 
delivery. Prior to implementation from a program office, the 
clinicians or the functionals, if you will, must identify very 
clearly what their stated needs are, also working with our 
technical folks so that when we deliver a capability it is 
something that the clinicians will use, which has been somewhat 
of a struggle in the Defense Department in terms of the 
usability aspects of some of our legacy environment.
    And so we absolutely have reached across DoD and VA, using 
the existing functional boards, the Health Executive Council 
being an example, to ensure we get the prioritization right 
from them, and so that we get the right input, functional 
input, before handing them over to, if you will, the IT folks.
    Also, I should mention that we have architectural teams 
working on both DoD and VA doing a gap analysis of our military 
health system architecture to see what we can leverage from our 
existing architecture, again, to drive the capabilities.
    In addition to the business process re-engineering, Mr. 
Baker mentioned pharmacy. Today, it is amazing to me how 
differently we execute the business, pharmacy being an example. 
To ensure that we deliver the IT capability that is needed by 
the clinicians, we are taking a very business-process focus to 
ensure that when we have common practices, common processes, we 
are utilizing those, documenting them in the enterprise 
architecture, and then ensuring that we deliver those 
capabilities against that. Again, it does take longer, but if 
you don't take those necessary steps, the probability of 
delivering an IT capability that does not meet the functional 
requirements is higher.
    And so it is all of those aspects, both inside and external 
to the IPO, that must participate in all of those activities to 
ensure that we have that capability.
    Mr. Johnson. Wow. You have just made my case for why an 
architecture is so very, very important----
    Ms. McGrath. It is extremely important.
    Mr. Johnson [continuing]. To accomplish--yeah.
    And, you know, this Committee has repeatedly requested to 
see the VA's IT architecture, and, as we speak today, we have 
still yet to receive one. So I am curious, how do you get 
insight from those architectural inputs? I would like to know 
what your secret is. Because we haven't seen an IT architecture 
from the VA, and we are very concerned about that.
    I am asking Ms. McGrath.
    Ms. McGrath. So, I can focus on the electronic health 
record part. We are doing a gap analysis. Again, architects 
from both organizations--and, again, I can----
    Mr. Johnson. Have you seen the VA's IT architecture with 
which to do that gap analysis?
    Ms. McGrath. I personally have not seen the----
    Mr. Johnson. But your team has, or----
    Ms. McGrath. It is my understanding that, yes, that the VA 
has brought forward their current architecture design in 
addition to the DoD's military health system architecture, and 
are doing a gap analysis, again----
    Mr. Johnson. Can you provide this Committee what you have 
seen in terms of their architecture design?
    Ms. McGrath. I would be happy to.
    [The DoD subsequently provided the following information:]

    In response to your question, please see the attached documents. 
[The attached documents will be retained in the Committee files.]
    These documents represent a variety of architectural diagrams and 
descriptions produced by and used by DoD and VA teams. A summary of the 
documents is provided below:

     iEHR Pharmacy Process Model Summary Report--The Joint DoD/VA 
Pharmacy TO-BE process and sub-processes described in Business Process 
Modeling Notation (BPMN) and associated text. The processes and sub-
processes give the architects and developers a detailed description of 
the steps associated with the Pharmacy Module, thus allowing them to 
construct the technical functionality necessary to fulfill these tasks.
     EHR Operational View (OV)-1--An overview describing the TO-BE EHR 
lifecycle from initiation of care to end of benefits. This diagram 
describes the key steps in the EHR lifecycle in a non-technical manner.
     EHR Blood Management High-Level Business Processes--This business 
process diagram is a formal model in BPMN describing the AS-IS DoD 
Blood Management workflow. The diagram enables the architects and 
developers to understand the necessary tasks in the process such that 
they can translate the business task into a collection of technical 
tasks.
     2010 Target DoD/VA Health Standards Profile--A comprehensive list 
of health care, communication and interoperability standards. The iEHR 
solution will comply with these standards in order to maximize 
interoperability with other EHR and non-EHR systems while ensuring 
patient safety, privacy and overall EHR integrity.
     Conceptual iEHR Architecture--The Conceptual Architecture is a 
high level representation of the joint DoD/VA capabilities that 
captures the common functionality as well as DoD and VA specific 
functionality. It acts as a reference for architects and engineers as 
to how the iEHR solution should be constructed.
     High-Level Service Architecture--A component diagram representing 
the high level capabilities and supporting capabilities necessary to 
deliver iEHR functionality. The component diagram provides a somewhat 
more granular reference for architects and engineers as to what 
functionality must be present in the EHR.
     MHS Enterprise Portal Reference Architecture OV-1--The OV-1 
provides an overview of the functionality provided by the Enterprise 
Portal and its interaction with the supporting systems such as the 
Service Oriented Enterprise. The Reference Architecture provides a high 
level view of recommended functionality within the Portal such that 
architects and engineers can implement the appropriate Portal 
technologies in support of iEHR requirements.
     EHR System Functional Model--Chapter 3: Direct Care Functions--
Descriptions of the Health Level 7 (HL7) EHR requirements to deliver 
health care and clinical decision support. The EHR System Functional 
Model provides a comprehensive list of capabilities that are used by 
architects and engineers to construct an iEHR solution that is in 
keeping with HL7 recommendations.
     EHR System Functional Model--Chapter 4: Supportive Functions--
Descriptions of the HL7 EHR requirements to deliver administrative, 
financial, public health, and research related services. The Supportive 
functions are required to enable the capabilities described in the 
Direct Care Functions.
     EHR System Functional Model--Chapter 5: Information Infrastructure 
Functions--Descriptions of the HL7 EHR requirements to address patient 
safety, security, and operational efficiency that are not necessarily 
health care specific. The infrastructure functions are necessary to 
implement the Supportive and Direct Care Functions.
     Common Services Spreadsheet--A description of the Service Oriented 
Architecture (SOA) Services in support of the EHR System Functional 
Model. The Services described in the Spreadsheet described a collection 
of low level technical functions that can be combined to fulfill the 
capabilities of the iEHR solution.
     Workflow Functions--A mapping of the EHR System Functional Model 
to business process activities. The mapping shows how the EHR 
requirements are fulfilled by the various workflows of the iEHR 
solution.

    Mr. Johnson. Okay. Thank you very much.
    Does the DoD and the VA intend to brief this Committee on 
the updated IPO charter prior to its release?
    Mr. Baker. Congressman, as you are aware, I have monthly 
meetings with your staff. We have kept them apprised of the 
progress in the meetings with the Secretaries, going through 
the memorandums. It has been moving quickly, the work with the 
Secretaries.
    So, absolutely, just as a normal course of that, as we have 
something to report out, I plan on making certain that we walk 
through with your staff those items.
    Mr. Johnson. Okay. All right. I appreciate that.
    The clock didn't start, so I have no idea how much time I 
have consumed. So I am going to yield now to the Ranking Member 
to ask some more questions just in case I am over my time.
    Mr. Donnelly. I have no additional questions at this time, 
Mr. Chairman.
    One comment I would like to make is to Dr. Roe, that we 
just consider that brisk weather in January in Illinois in our 
neck of the woods.
    Mr. Johnson. And I am with you. I don't like to be cold, 
and I am enjoying this heat wave we are having up here. I am 
probably the only one that is.
    Dr. Roe, do you have additional questions? Mr. Flores, do 
you have any questions?
    Mr. Flores. I have no further questions. I would say this 
is just moderate weather, though.
    Mr. Johnson. Okay.
    Dr. Roe.
    Dr. Roe. Just very briefly, I can certainly appreciate on 
Health Insurance Portability and Accountability Act (HIPAA). It 
is frustrating from our standpoint, because everybody is busy. 
I mean, you guys are busy, we are busy. And if we ask for a 
request and it doesn't show up for a month or 6 weeks or 2 
months, you almost forget about what the request was about.
    And so how long does it take, if the Committee makes a 
request of VA, by the time it works through all of the 
processes it has to, that we get feedback? Is it months, is it 
days, or what?
    I know, Mr. Thompson, you are going to get a request back 
tomorrow. I know what ``tomorrow'' is, unless you are a 
building contractor, and ``tomorrow'' is sometime in the 
future. But we expect ``tomorrow'' will be tomorrow we will get 
it back.
    So how long is that?
    Mr. Murphy. I don't have that information with me. But as 
part of my response talking about the number of requests we get 
without PII, I can certainly respond with a timeliness, the 
number of requests, number of days.
    Dr. Roe. And also, on the medical record, just a comment. 
That information ought to be available. We kept it in our 
office. If someone requested a medical record, you could call 
us at the end of the week and we could tell you how many we 
had. So that shouldn't be hard to get that information. How 
much is HIPAA protected? And then some of this is not HIPAA-
protected information. That ought to be fairly forthcoming.
    Mr. Murphy. Yes. The non-HIPAA information is where I was 
going to focus this response on, but I can expand it to all 
requests, because we do track them inside our agency of which 
requests we have and the timeliness of those.
    Dr. Roe. Okay. I yield back.
    Mr. Johnson. Any other follow-on questions, Mr. McNerney?
    Mr. McNerney. Yes, I actually do, Mr. Chairman, if you will 
allow it.
    You know, Ms. McGrath, I just have to say, I was impressed 
with the words that you used there when I had my last set of 
questions, but I didn't see in your tonality or your body 
language a real belief in those words.
    And I just have to say, the IPO--and I am following up some 
earlier words--the IPO was passed 3 years ago, and yet we are 
still haggling about it.
    I mean, would it be completely and totally unfair to say 
that there is a jurisdictional dispute or jurisdictional issue 
between the two departments on this issue? Or are we just 
cooperating like we are all up in heaven and getting along just 
fine?
    Ms. McGrath. I would like to say that since the Deputy 
Secretary has asked me to engage in the integrated electronic 
health record effort, starting back in December, to try and 
ensure that we collectively, both the DoD and VA, were on the 
most common path we could be on, we have been in lockstep. And, 
I mean, I live this every day. And these aren't words for 
words' sake; these are words with actions behind them.
    And even though Mr. Baker identified that we put an interim 
program manager in place on the 23rd of June, we have been 
managing the effort for months to ensure that we are focused on 
common data standards, common business process, the 
architectural piece. The teams have been working side-by-side 
in my conference room multiple times a week, hours upon hours, 
to ensure that we have put the foundational pieces in place to 
drive this forward.
    And so it is unfortunate that perhaps my body language 
isn't speaking the volumes of the day-to-day activity. I do not 
feel that there is jurisdictional disconnect between the two 
organizations. In fact, I feel that we are more aligned today. 
And I don't have a past with VA, and I have not worked 
collaboratively with them on any IT projects before, but I can 
tell you where we are headed today. The level of cooperation, 
coordination, and leadership, frankly, between our two 
organizations is demonstrated throughout them.
    Mr. Baker. Congressman, I just have to tell you that Ms. 
McGrath's strong commitment to this has been pivotal to the 
progress we have made over the last 6 months. I couldn't 
estimate the amount of her time that goes into this, but in a 
range of probably close to 50 percent of what she does as an 
Under Secretary is going into this effort inside of DoD.
    And so I think it is fair to separate prior to the 
engagement of the Secretary of Defense, Secretary of Veterans 
Affairs and post that. Post that, I believe there is no issue 
and we are in lockstep. Prior to that, I think that there were 
substantial issues that showed up in the IPO relative to 
agreement between the two departments.
    But that is why it took the two Secretaries stepping in and 
saying that they weren't going to take ``no'' for an answer 
anymore, that ``yes'' was the required answer. And that is what 
you have seen over the last 6 months.
    Mr. McNerney. So that has been the driver, the two 
Secretaries making it clear that this is high-priority?
    Mr. Baker. Absolutely. You can see that in the memorandums 
that have come out of those meetings.
    Mr. McNerney. Now, earlier, the Chairman mentioned the 
difference, perceived difference, in the architecture between 
the two departments. Is there a lack or a lag in the VA with 
regard to that issue, the architecture?
    Mr. Baker. Absolutely, yeah. The Chairman--we had a hearing 
here a few months ago, and I concur with the Chairman. There 
has been a lack of a well--documented architecture at VA for 
years. We are working to address that, but the Chairman knows, 
that is not an easy--it is not a tomorrow. I will make no 
commitments relative to delivering an architecture tomorrow. It 
is something we are wrestling with.
    Mr. Johnson. I was going for today, Mr. Baker, but okay.
    Mr. Baker. We need someone as good as you to help us with 
that, sir.
    I do believe, though, that what we are able to share with 
the DoD is what is in place at the VA now and where we intend 
to go. Is it a well-documented, formalized architecture that I 
would feel proud to deliver to a Congressional Committee? No. 
But we have an understanding of where we are and where we are 
going along those lines.
    Mr. McNerney. Thank you, Mr. Chairman. I yield back.
    Mr. Johnson. Thank you very much for yielding.
    Seeing no further questions, Representative Donnelly I 
think has one final question for this panel.
    Mr. Donnelly. The question would be, you know, we have 
talked a lot about the last 6 months. What happened for years 
before that, and when you come before us and say, well, we have 
this handled, don't worry about it, there is really no need for 
you to go into legislation on this side we went years with a 
gap, and so how come the truck never left the garage during 
those years?
    Mr. Baker. Congressman, I can't speak for previous 
administrations. I can tell you that the driver in this 
administration has been the President's vision of a virtual 
lifetime electronic record, and then the two Secretaries view 
that that meant making hard decisions that might have been 
resisted.
    Mr. Donnelly. What happened before December of last year?
    Mr. Baker. We have made substantial progress on the 
lifetime electronic record as the two organizations have 
defined it and in working together. I believe what the 
Secretaries found, using north Chicago as an example, was that 
trying to continue to exist in a world where two different 
medical records were trying to be implemented at the same 
hospital was not one that made logical sense anymore. And so at 
that point it was clear to them that they needed to personally 
tackle the issue. The organizations by themselves were not 
going to solve the issue. It was going to take the two 
Secretaries in a series of meetings to make the decisions 
necessary to get past ``no'' and on to ``yes.'' I recognize 
that the bureaucracy does not move fast. It did take those two 
individuals getting involved.
    Mr. Donnelly. Thank you, Mr. Chairman.
    Dr. Roe [presiding]. On behalf of the Committee, thank you 
for your testimony. You are now excused.
    At this point I would like to invite the second panel to 
the witness table. On this panel we will hear testimony from 
Ms. Debra Filippi, former Director of the DoD/VA Interagency 
Program Office, the IPO. We will also hear testimony from Jeff 
Hall, Assistant National Legislative Director for the Disabled 
American Veterans; and Brian Gallucci, Deputy Director of the 
National Legislative Service for Veterans of Foreign Wars of 
the United States. Your complete written testimony and 
statements will be made a part of the hearing record, and you 
are now recognized, Ms. Filippi, for 5 minutes.

     STATEMENTS OF DEBRA M. FILIPPI, FORMER DIRECTOR, U.S. 
   DEPARTMENT OF DEFENSE/U.S. DEPARTMENT OF VETERANS AFFAIRS 
INTERAGENCY PROGRAM OFFICE; JEFFREY C. HALL, ASSISTANT NATIONAL 
 LEGISLATIVE DIRECTOR, DISABLED AMERICAN VETERANS; AND RYAN M. 
   GALLUCCI, DEPUTY DIRECTOR, NATIONAL LEGISLATIVE SERVICE, 
         VETERANS OF FOREIGN WARS OF THE UNITED STATES

                 STATEMENT OF DEBRA M. FILIPPI

    Ms. Filippi. Mr. Chairman, Ranking Member Donnelly, 
distinguished Members of the Committee, thank you for this 
opportunity to provide testimony on the ``Ensuring 
Servicemembers' Electronic Records' Viability Act,'' H.R. 2470, 
to improve the electronic health record information systems and 
capabilities of the Department of Defense and the Department of 
Veterans Affairs.
    I offer this testimony today as the former Director of the 
Interagency Program Office, serving from October of 2009 to 
June of 2011. I retired from that post June 3rd after a 
fulfilling 34-year career with the Federal Government. It is my 
privilege to have this opportunity to provide remarks regarding 
the proposed legislation that would strengthen the functions 
and the authorities of the IPO to better serve our military, 
veterans and their families.
    Since its inception, the IPO has had a positive impact on 
enhancing the interagency approach to electronic health record 
development for DoD and VA. The IPO created interagency plans 
and schedules that provided a road map of joint activities, 
established a multitiered governance approach that guided the 
interagency decision process, and provided a neutral meeting 
environment that minimized biases and fostered accountability 
between the two Departments on the execution of their separate 
electronic health record initiatives.
    However, these steps were marginal in comparison to what 
could have been accomplished had the appropriate functions and 
necessary authorities been assigned to the IPO to fulfill the 
law. The role and mission of the IPO as defined in a charter 
signed by the two Deputy Secretaries in September 2009 was to 
be the single point of accountability for coordination and 
oversight, not for development and implementation as stated in 
the law.
    Furthermore, the authorities necessary to execute section 
1635 of the 2008 NDAA were specifically retained by the DoD and 
VA program offices, not conveyed to the IPO. Accordingly, the 
control of the budgets, contracts and technical development 
remained with the two Department program offices. As a result, 
the IPO was not empowered by the Departments with the necessary 
functions or authorities to execute the intent of the law.
    Initiatives such as the James A. Lovell Federal Health Care 
Center Project in north Chicago would have benefited, greatly 
from converged solutions implemented by a single entity rather 
than the complex, duplicative, two-department solutions they 
received.
    Congress established the IPO to improve the fielding of an 
interoperable health record capability for those who have 
served our country so nobly. The quantum leap for both 
Departments is to unite their development efforts into one 
organization and create a single superlative electronic health 
record that by definition is interoperable and yields a 
transparent, effective and efficient capability for our 
warriors, present and past.
    The IPO is the medium for DoD and VA to merge their 
resources, their intellectual property and their spirit as 
force multipliers for operational as well as economic success. 
The promise of a fully empowered IPO is synergy, solidarity and 
unity between DoD and VA, and a patient-focused capability for 
our patrons. The chosen path for the IPO was only a step in the 
right direction, a bunt in baseball parlance that resulted in 
modest progress. Now we need a home run: a single program 
office embraced by the two Departments and empowered with the 
necessary authorities to develop, implement and sustain the 
best electronic health record capability.
    This draft legislation is a designated hitter for this home 
run. It declares to the Departments what is expected in 
establishing a true Interagency Program Office, to include the 
authorities necessary to execute the functions. The language 
serves as a template for the necessary modification to the IPO 
charter and obviates any conflict or resistance that still may 
exist.
    The most important issue to be reconciled is who is the 
responsible party for executing the funding, for that 
organization is truly the one accountable for interoperability 
of EHR systems. This is not only about interoperability, it is 
about pursuing economic-minded approaches to Federal Government 
best business practices.
    Creating the IPO was an innovative idea, one that will no 
doubt cast the mold for future Federal partnerships. I strongly 
endorse the passing of this language for the benefit of our 
military, veterans and their families. Thank you.
    [The prepared statement of Ms. Filippi appears on p. 39.]
    Dr. Roe. Thank you.
    Mr. Hall.

                  STATEMENT OF JEFFREY C. HALL

    Mr. Hall. Thank you, Chairman Roe, Ranking Member Donnelly 
and Members of the Subcommittee. Thank you all for inviting 
Disabled American Veterans to testify at this legislative 
hearing of the Subcommittee on Oversight and Investigations. 
Due to time constraints I will focus my remarks on the pending 
bill most concerning to us.
    H.R. 2383, the ``Modernizing Notice to Claimants Act,'' 
would make a number of changes to VA's current duty to notify 
and assist claimants seeking disability compensation benefits. 
Mr. Chairman, while we believe the intent of this legislation 
is to help streamline the claim process in order to reduce the 
backlog of claims for disability benefits, we have serious 
concerns about whether some of the new regulatory provisions in 
the bill might be implemented by VA in a way that could instead 
weaken the ability of veterans to receive their full benefits.
    In the context of VA's focus on reducing the large and 
growing backlog of claims, the regulatory changes proposed in 
H.R. 2383 could create opportunities to speed claims through 
the process regardless of whether VA has provided sufficient 
notice and assistance to ensure that the veterans receive 
maximum benefits to which they are entitled.
    Mr. Chairman, DAV agrees that VA must have the ability to 
fully utilize electronic communication, but we do have concerns 
about the language proposed to achieve this goal. H.R. 2383 
would require VA to send notice by the most expeditious means 
available, including electronic notification or notification in 
writing. However, because we believe the only way to reduce the 
backlog is to create a system designed to decide the claims 
right the first time, not just get them done quickly, we also 
believe that notice should be sent by the most effective means, 
not simply the most expeditious means. We recommend the bill 
language be changed so rather than direct VA to use the 
quickest means, they instead seek to use the most effective 
means.
    Just as many of us are given such a choice in communicating 
with our banks or paying bills, so, too, should veterans be 
given the choice to elect the best method for VA to communicate 
with them.
    H.R. 2383 would also allow both notice and duty-to-assist 
requirements to be waived at VA's sole discretion if they can 
award the benefits sought based on the evidence of record. 
Though DAV is supportive of the general intent of this section 
of the legislation, which is to provide veterans the benefits 
to which they are entitled at the earliest stage in the 
process, we have concerns about how this language might be 
implemented in the field.
    For example, many claims are for conditions that have more 
than one possible disability rating, and it is important that 
VA not waive its duty to notify and assist claimants unless 
they are awarding the full benefit to which the veteran is 
entitled. In an environment where eliminating the backlog is 
VA's focus, we are concerned that allowing VA this type of 
authority might create incentives and opportunities for ratings 
to be awarded at a lower level, even if there is some 
likelihood that further development might lead to a higher 
rating based on additional evidence.
    We are also concerned that such a waiver of authority might 
create disincentives to review a claim for inferred or 
secondary conditions. There are situations when the claimants 
feels an increased rating--feels he is entitled to an increased 
rating and indicates the condition has adversely affected 
employment. This could lead to an inferred claim for individual 
unemployability, which might require additional development to 
establish. However, under the new language, benefits sought, 
i.e., increased rating, could be awarded without further 
development to determine whether the veterans should be rated 
for the individual unemployability.
    To clarify the provision of this bill, DAV recommends the 
language be changed to make clear that such a waiver of VA's 
obligation should only occur when maximum benefits sought can 
be awarded, including benefits for inferred or secondary 
claims.
    Section 3 of the bill would also change VA's duty to assist 
to a new standard that VA would assist only if the claimant 
requests assistance. We believe the intent of this provision is 
to reduce unnecessary development for private records that have 
no material impact on the outcome of a decision. We are 
concerned that it could create too great a burden on those 
veterans who may not have the physical or financial means to 
obtain private medical records.
    Finally, DAV has serious concerns about inserting language 
into title 38 to allow a claimant to waive all or part of VA's 
duty-to-assist requirements. As with many of the changes 
proposed in this legislation, we are particularly apprehensive 
about unrepresented veterans who may not have the knowledge or 
expertise to fully understand the ramifications of agreeing to 
such a waiver. Moreover, it is not clear when and how VA might 
seek to use such waiver of authority. For example, would VA try 
to get veterans to waive their duty to assist in obtaining 
private medical records in exchange for a faster decision?
    In closing, we agree with the goal of preventing 
unnecessary overdevelopment of the claim. To help with this, 
DAV has proposed and supported legislation directed at ensuring 
private medical evidence be given the same weight as VA medical 
evidence, and that private treating physicians be allowed to 
electronically submit disability benefit questionnaires.
    Mr. Chairman, we would welcome the opportunity to work with 
you and the Committee along with our colleagues in the veterans 
community to craft comprehensive legislation to achieve these 
other shared goals. This concludes my statement, and I will be 
happy to answer any questions the Subcommittee may have.
    [The prepared statement of Mr. Hall appears on p. 43.]
    Dr. Roe. Thank you, Mr. Hall.
    Mr. Gallucci.

                 STATEMENT OF RYAN M. GALLUCCI

    Mr. Gallucci. Chairman Roe, Ranking Member Donnelly and 
Members of the Subcommittee, on behalf of the 2.1 million 
members of the Veterans of Foreign Wars of the United States 
and our auxiliaries, I thank you for the opportunity to present 
our views on today's pending legislation.
    The bills before the Committee today seek to remedy 
persistent oversight issues keeping veterans from receiving the 
timely care, benefits and opportunities they deserve. The VFW 
generally supports many of the ideas up for discussion today; 
however, we have several concerns that we hope the Subcommittee 
will address before proceeding.
    On H.R. 2388, the ``Access to Timely Information Act,'' the 
VFW supports this bill, and we applaud efforts to ensure the VA 
provides timely information to the Committees.
    On H.R. 2243, the ``Veterans Employment Protection Act,'' 
the VFW supports the intent of this bill, but views publishing 
of veteran employment information by Federal contractors is 
only one small step in ensuring that veterans actually have the 
employment opportunities that companies have reported.
    Today, the Department of Labor fails to follow up on 
information provided by contractors in their VETS-100 
paperwork. In Congressional testimony last year, the VFW 
outlined a series of reforms that must take place in Department 
of Labor reporting and auditing processes to ensure compliance 
with veteran hiring mandates. This bill would only satisfy one 
of our recommendations, and the VFW would be happy to work with 
the Committee on ways to implement others.
    The VFW is proud to support H.R. 2470, the ``Ensuring 
Servicemembers' Electronic Records' Viability Act,'' which will 
create a final reporting authority for the creation and 
implementation of electronic health and service records for use 
by the Department of Defense and the VA.
    As an Iraq veteran, I can tell you that this electronic 
record is long overdue. When I completed my enlistment in 2007, 
my Reserve unit sent me my health and service records, the only 
complete copy of my military records available. Since 2007, I 
have requested copies of certain paperwork only to learn that 
DD-214s, awards, schools and, most importantly, my medical 
records may be missing from certain military databases. 
Thankfully I already enrolled with VA while I was still a 
drilling Reservist and authorized VA to copy what they needed 
from my record at the time. If I had simply transferred out of 
the military before enrolling at VA, I can only imagine the 
hurdles I would have had to jump through simply to prove my 
eligibility. This is just one example of why a bidirectional 
and fully electronic health record with the ability to be 
updated by both DoD and VA is of the utmost importance.
    Since DoD and VA were tasked with creating the joint 
electronic record, we have seen little progress. This bill, 
which establishes a joint office no lower than a Deputy 
Secretary level and dedicates budget line items for funding, 
will set into motion a chain of accountability and authority to 
ensure that the electronic record finally becomes a reality.
    Finally, I will dedicate the balance of my time to 
discussing H.R. 2383, the ``Modernizing Notice to Claimants 
Act.'' Today duty-to-assist requirements can mean that 
veterans' claims can remain idle within the VA system for more 
than a month and a half, exacerbating the backlog and creating 
potential financial hardships for veterans. The VFW agrees that 
steps must be taken to reduce delays due to statutory 
requirements; however, the VFW insists any changes must not 
negatively affect veterans.
    The VFW views the notion that the VA can communicate 
electronically with veterans positively, considering that many 
conduct business online. However, online communication may not 
be the most expeditious to all; therefore, it must be requested 
by the veterans and not mandated by VA.
    The VFW also has three concerns with placing the duty-to-
assist notice with the claim application. First, this could 
shift the burden to gather evidence from the VA to the veteran.
    Second, it could also encourage veterans to collect their 
own medical evidence prior to formally filing a claim, delaying 
their effective date. The VFW believes that any changes must 
include a clear, easy-to-follow process in the instructions to 
VA form 21-526 whereby a veteran can initiate an informal 
claim, receiving an immediate effective date.
    Third, the VFW is concerned that by moving the duty-to-
assistant notification, veterans will no longer be notified of 
VA's receipt of the claim. The VFW suggests that if the duty to 
assist is moved to the application phase, then VA must continue 
to send receipt notifications.
    The VFW also believes that language of the bill must ensure 
that duty-to-assist notifications comply with current 
regulation and precedent established by the Court of Veterans 
Appeals whereby VA must assume that the veteran is seeking the 
maximum benefit allowed for the disability.
    I direct the Committee to our submitted remarks for how we 
believe section 2, paragraph 5 of this bill should read. The 
VFW must reiterate that veterans can neither have the burden to 
gather evidence shifted to them, nor shall any changes in 
regulation harm a veteran's ability to receive the most 
complete and accurate claim as possible.
    The VFW's full recommendations are included in our 
submitted testimony, and we look forward to working with the 
Committee on how to streamline the process to deliver the best 
outcomes for our veterans.
    Chairman Roe, this concludes my testimony. I would be happy 
to answer any questions the Committee may have.
    [The prepared statement of Mr. Gallucci appears on p. 48.]
    Dr. Roe. Thank you very much.
    And also, thank you all for your service to our country.
    I had to chuckle a little bit when you were talking about 
your medical record, because when I was in, I had a Manila 
envelope, and if it got lost, your whole record was--it was 
Thomas Jefferson's medical record. We have to do better than 
that.
    And I think certainly the trip I made to Detroit 2 years 
ago, Mr. Hall, to look at the amount of paperwork was, I was 
amazed at how much paperwork there is. We have to do better.
    And I guess, fortunately or unfortunately, we are right now 
in a transition where we are going from a paper record to a 
paperless one, and it is a huge challenge. I had them put an 
electronic medical record in my office, and I can't imagine the 
millions and millions of pieces of paper. We have to do that, 
though, because you are absolutely correct, when you leave the 
military, if you hadn't done that, you might still be looking 
for your records and information.
    Mr. Hall, I read your testimony before I came this morning, 
and I know your concern is legitimate, but do you think that 
the VA is heading in the right direction here? I just filled 
out my online form for my Social Security. I finally got old 
enough to get it. The only problem, I found out next month is 
that there is not going to be any money to get my check, so I 
was a little disappointed in that. But other than that, it was 
a pretty easy process to go through. And I really was amazed in 
just about 10 minutes; they called the next day. It was 
literally not a 30-minute deal.
    I realize that a veteran's disability is much more 
complicated, because there may be multiple physicians and years 
of information. The VA is trying to streamline this. I know 
certainly Secretary Shinseki is. He is absolutely committed, 
instead of veterans going for years and years before they get a 
decision.
    And I read your concerns about this, about how an older 
veteran might be more reluctant to use a computer or can't use 
or doesn't have a computer, whereas maybe the younger folks 
could--I mean, they don't even talk on the phone anymore, they 
just text each other, so it is very easy for them. Am I correct 
on that?
    Mr. Hall. Yes, sir. For DAV, I mean, the VA--in our 
opinion, the VA is moving in the right direction, albeit slowly 
with certain aspects of it, especially the moving from paper to 
a paperless claims process with the VBMS system, different 
things like that, which--you know, we have had the opportunity 
to look at snapshots of the VBMS and how it might affect the 
overall claims process, and that is still far out from where it 
is going to be. I believe delivery is expected in 2015. So that 
is just one aspect of it.
    A newer one, the eBenefits system, being able to go online 
and file your claims, we like the idea of that. Certainly there 
are going to be veterans that really, really appreciate having 
that means to be able to do it. They can go online; they can do 
it simply as you have described it.
    What we want to ensure with something like that is that 
things like proper duty to notice and assistance from VA is not 
lost in the translation of that. For example, veterans should 
be offered the opportunity to know that free representation, 
adequate professional representation by service organizations 
like DAV, they need to know that that information is there for 
them, that they can obtain it. So if they go online on the 
eBenefits system, one of the first things they should see is, 
do you have a representative? Do you know that some 
representatives do not charge for their services? Here is an 
example of some of them.
    What we have seen of lately is they have made progress of 
getting that there to where when you log on, you click on it, 
there it is. ``Do you have a representative'' appears. When you 
go to select DAV, it goes to DAV national headquarters as an 
address, not the nearest one that the person--and that is who 
they need, not my office per se. Maryland, as an example, 
doesn't even exist. We have an office in Baltimore; it doesn't 
exist in there.
    There are obviously things that have to be tweaked and 
fixed with that, but the idea of the fact that progress is 
moving? Yes, progress is moving. We don't think that an 
electronic notification of ``we are providing you notice that 
A, B and C will be done in your claim, and it is your 
responsibility to do D, E and F,'' because if it is a 
disclaimer where I accept the terms and conditions of this that 
is 10,000 pages deep, nobody will read it, and the veteran is 
going to miss that. Albeit maybe they don't read the one--you 
know, a lot of them don't read the paper duty for notification, 
the VCAA notice letter.
    But the point is they are moving in the right direction 
with the electronic technology. We just want to make sure that 
the notice isn't lost nor the duty to assist is lost in 
translation. Thank you.
    Dr. Roe. Ms. Filippi, you made some great points in your 
testimony. If you were the head of all this right now, what 
would you do to make this move along quicker? See, I think what 
would have made more sense--and again, you have DoD with 
records, you have VA with records; both were digging in their 
turf. I like my record, this outfit likes their record. It 
would have been simpler if we just went to one record; said, 
look, on day 1 we are going to switch. It is painful to do, but 
that is absolutely the easiest way to do it, and trying to 
integrate them apparently for 10 years and $10 billion hadn't 
been successful. What would you do?
    Ms. Filippi. As I said in my comments and testimony, I 
think the real key here is the notion of unity of effort. And 
frankly, up until very recently I still think the two 
Departments had very separate paths that they were pursuing. 
That is why I feel so strongly that the IPO needs to represent 
and really needs to be a merge of the two program offices from 
the two Departments so you will have that unity; you will have 
them thinking as one; you will have them creating that one 
architecture, that one data source, and that one capability 
that they field out there to all their constituency.
    So that is where I think the center of gravity is is 
creating this oneness so that we are not thinking about two 
different approaches or two different strategies.
    Dr. Roe. Thank you.
    Mr. Donnelly.
    Mr. Donnelly. Thank you, Mr. Chairman.
    And, Ms. Filippi, what were some of the challenges you 
faced as Director of the IPO in regards to people going on two 
different tracks, in fact?
    Ms. Filippi. Yes, sir, that is a great question. I think it 
really boils down to as long as everybody is pleased with the 
decision, everyone cooperates. So it is when you get to the 
real tough conflict where the two parties don't really see 
things that same way and want to go in two different 
directions, where does the conflict resolution occur?
    And unfortunately, the IPO didn't have the empowerment to 
resolve conflict, and it always had to go back to very high 
authorities to try to resolve the day-to-day kinds of things. 
And so I think that is really why this notion of merging 
together under one roof.
    And, Chairman Roe, you mentioned earlier in the Rosslyn 
program office, that is really where the center of gravity 
should be, not in the Pentagon, not over at VACO headquarters, 
but in Rosslyn. That is where the resources should be, that is 
where the decisions should be made, and that will expedite 
moving things forward.
    Mr. Donnelly. And this would be for Mr. Gallucci, Mr. Hall, 
either one. H.R. 2383 requires the VA to communicate with 
veterans electronically. Do you think it is a concern with our 
older veterans who may not be technologically savvy as to this 
requirement, and how do we deal with that?
    Mr. Gallucci. Thank you for the question.
    We do agree that we don't believe that many older veterans 
would be as technologically savvy. This is why we pointed out 
that it may not always be the most expeditious form of 
communication. You can't guarantee that a veteran is going to 
check their email or even have an account. So what we would 
prefer the bill to say is that the veteran can choose to use 
electronic communication as the most expeditious means, but 
that we would prefer VA not mandate it.
    Mr. Hall. I agree, with the addition of, as I had stated in 
my oral remarks, expeditious is going to mean one thing to one 
individual, but we are looking really towards VA communicating 
in the most effective means possible. That may be 
electronically for a large part of the claim population, it may 
not be. Veterans should be given that choice of how they want 
to communicate.
    Also it adds to the question of what is really meant by 
``electronic communication''? What is the limit to that? What 
is the intent of the legislation? Is it broad to say that if I 
receive something from VA that I can turn around and email 
back, and I am going to have this daily email chat with VA? We 
don't know because it is not written in the law.
    That is something that is going to be a major concern, 
because if we have regionalized call centers, and we are trying 
to go to a more slimmer or reduced amount of information in a 
notice, how apt are we going to be--speaking as VA, how apt are 
we going to be to reply to emails? So those are things that 
concern us as well.
    Mr. Donnelly. I want to thank the witnesses.
    Thank you, Mr. Chairman.
    Dr. Roe. I notice Mr. Donnelly looked over here when he 
said ``older veteran.''
    Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Ms. Filippi, I certainly thought your testimony was 
informative, and thank you for your thoughtful remarks.
    You know, the prior panel had given the impression that 
things are coming along pretty well, and I appreciate that. But 
what I would like to ask is do you agree with that assessment? 
Is the IPO moving along in an expeditious manner at this point?
    Ms. Filippi. Well, sir, obviously my involvement is dated 
as of June 3rd, but I will say that, back to the comments that 
were made earlier, we are moving in the right direction, but we 
are not moving fast enough. As I said in my comments, I think 
we have hit a bunt; we need to hit a home run. We need to 
invest the execution authority into the IPO. We need to merge 
the program personnel from the two Departments into the IPO.
    There was mention made that a charter is being written and 
should be done by August. A charter had been rewritten for the 
IPO last fall that had all the authorities and the 
responsibilities in it that were really required to move 
forward in an expeditious fashion. So I am not sure what 
additional time is needed to create the right environment. I 
just think action is required, and authority needs to be 
invested.
    Mr. McNerney. Good.
    It was testified that the work and the urgency imparted by 
the Secretaries in a joint manner has been important in terms 
of moving the process forward, and that seems reasonable. Do 
you think that is sufficient, or do we need to do legislation 
to make sure that that actually happens?
    Ms. Filippi. Well, I came here today to say that I endorse 
the legislation that has been proposed. And I still think that 
it is a good thing, that it has the right words and the right 
expectations of what the intent of Congress was for the IPO to 
move forward as the sole organization on behalf of the 
Department. So I do endorse the legislation.
    Mr. McNerney. So specifically H.R. 2470 is the legislation 
you are referring to?
    Ms. Filippi. Yes, sir.
    Mr. McNerney. And you think that may be a home run, maybe a 
triple, but it is getting us farther down in terms of scoring.
    Ms. Filippi. Yes, sir. I like the analogy.
    Mr. McNerney. Thank you.
    Mr. Gallucci, I appreciate your comments regarding H.R. 
2243. I think what you are saying basically is similar to what 
was said: It is a bunt, it is a step in the right direction, 
more needs to be done. And I certainly would be willing to work 
with your office, my staff and the Committee staff, to get 
those additional measures involved.
    Is there anything specifically you would like to point out 
at this time that would be an improvement?
    Mr. Gallucci. Well, one of the points that the VFW made in 
earlier Congressional testimony is that there need to be 
auditing processes whereby the Federal contractors who file 
their VETS-100, VETS-100A paperwork can be held accountable for 
the numbers that they report on veteran hires.
    Right now the way that we understand it is once the 
paperwork is filed, that is the end of the process, it is taken 
at face value. So the VFW would encourage a stronger piece of 
legislation to allow the Department of Labor to take action 
against contractors who don't actually meet compliance or 
report false information.
    Mr. McNerney. Thank you for that suggestion.
    With that, I yield back.
    Dr. Roe. Thank you for yielding.
    Mr. Hall, in the actual legislation it says, by inserting 
``the most expeditious means available, including electronic 
communication or notification in writing'' before ``of any 
information.'' So I guess what you are saying is once--and I 
agree with you--once we begin to communicate, is it going to be 
electronic, is it going to be by the mail? I think that is what 
I heard you say; am I correct?
    Mr. Hall. You are correct. I mean, if you are looking 
specifically at just the electronic communication, 
understanding that the legislation also says, you know, by 
written notification. Again, what concerns us with that is once 
the law is changed, and once the regulatory amendment comes 
into play, how does that affect the field offices? Will this VA 
regional office communicate primarily by electronic means? I 
mean, the directive may be from VA central office that this is 
the way we are going to do it, and you have no choice. But they 
have things like that in place now, that the local authority 
supersedes that, and they are able to choose which path.
    So, yeah, we simply think that--we agree with your 
assessment of it that it needs to be inclusive in that.
    Dr. Roe. Any further questions from the panel?
    Thanks to the panel. You are now excused.
    Oh, you had one, I am sorry. Go ahead.
    Mr. McNerney. Mr. Gallucci, a little bit more follow-up on 
H.R. 2243. Do you believe that making the VETS-100 reports 
public will encourage contractors to better comply with hiring 
laws?
    Mr. Gallucci. We would agree with that assertion. This is 
something that the VFW said in past testimony is that this was 
one of the recommendations. And just to go back to the baseball 
analogy, by mandating that companies file the VETS-100, DoL has 
the runner on base; just need to move them over now. And by 
encouraging that public discourse, it would hold Federal 
contractors accountable for what they report.
    Mr. McNerney. So would that be useful to your organization, 
that information, in terms of making sure that the veterans are 
treated in accordance with the law?
    Mr. Gallucci. Yes, it would. And one of the points that I 
brought up in my submitted remarks is that the Federal 
Government is held to a higher standard on hiring veterans. We 
saw the Veterans Hiring Initiative over the last couple of 
years, and we just want to ensure that contractors that do 
business with the government are held to a similar high 
standard.
    Mr. McNerney. Thank you.
    All right, Mr. Chairman, I yield back.
    Dr. Roe. I thank the gentleman for yielding.
    Certainly with a 14 percent unemployment rate for veterans 
now, that is absolutely critical.
    Our thanks to the panel. You are now excused, and your 
complete written testimonies will be part of the hearing 
record.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material. Without objection, so ordered.
    I also want to thank the Members and witnesses for their 
participation today. The hearing is now adjourned.
    [Whereupon, at 10:36 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Prepared Statement of Hon. Bill Johnson, Chairman,
              Subcommittee on Oversight and Investigations
    Good morning. This hearing will come to order.
    I want to welcome everyone to today's legislative hearing on H.R. 
2383, the Modernizing Notice to Claimants Act; H.R. 2243, the Veterans 
Employment Promotion Act; H.R. 2388, the Access to Timely Information 
Act; and H.R. 2470, the Ensuring Servicemembers' Electronic Records' 
Viability Act.
    The bills we are discussing today are the result of months of 
input, work, research, and investigation. The Modernizing Notice to 
Claimants Act, which I introduced last month, makes several important 
steps toward streamlining part of the claims process that will 
contribute toward reducing the disability claims backlog. Section 5103 
of Title 38 currently requires the Secretary of Veterans Affairs to 
provide a claimant a written notice of responsibility that informs both 
the veteran and the VA of their responsibilities regarding each claim. 
Furthermore, as written, this law requires a separate written notice of 
responsibility for any subsequent claim, even if that subsequent claim 
is covered under the original pending claim. Additionally, the section 
requires VA to ``make a reasonable effort to obtain private records 
relevant to'' a veteran's claim.
    The Modernizing Notice to Claimants Act would allow for the most 
efficient delivery method for any notice, including electronic written 
responses. Additionally, the proposed changes will not require VA to 
provide an additional notice for a subsequent issue that is already 
covered under a previous claim. The bill would also define VA's 
``reasonable effort'' to acquire a veteran's record to no less than two 
requests and also encourage the veteran to play an active role in 
providing evidence for her or his claim.
    Lastly, if a veteran's claim can be adjudicated in the veteran's 
favor, without additional evidence, there is no need for VA to attempt 
to acquire any further evidence.
    One of the primary effects of these changes would be a reduction in 
claim processing time by approximately 40 days. Often, we have laws on 
the books that date back many years and do not allow for utilizing all 
the tools at an agency's disposal. It is important that this Committee 
and the Congress re-visit laws to ensure they still achieve their 
original intent. By clarifying several key areas in the law, the 
Modernizing Notice to Claimants Act reinforces congressional intent and 
delivers a better service to veterans.
    Another bill I wish to mention in my opening remarks is H.R. 2388, 
the Access to Timely Information Act, introduced by Chairman Miller.
    The need for this clarifying legislation results from frequent 
obstruction by VA in providing necessary information to this Committee, 
and the bill's objective can be summarized as enabling the legislative 
branch to better conduct its oversight responsibilities.
    Even in requests for information that do not contain sensitive 
material, the VA often takes several weeks in providing responses, 
often demanding that the request be sent in the form of a signed 
letter.
    The longstanding agreement, that was supposedly based off of VA 
policy, had been that if a request from the Committee involved 
personally identifiable information, or PII, then the request would be 
sent in a signed letter. However, it has come to light that staff at VA 
inconsistently applies this policy, and that the policy itself is not 
even in writing. After multiple requests over several months for a 
written policy from VA, nothing has been presented to the Committee, 
and the end result has been obstructive behavior that hinders this 
Committee's efforts to help our veterans.
    This bill clarifies that requests from Committee Members and staff 
are covered under the pertinent privacy laws with respect to sensitive 
information.
    This is not rocket science, and I am frustrated and disheartened 
that we have reached a point where we need this legislation. As I 
stated before, this bill will simply help us do our job. Past efforts 
at working with VA to establish a consistent policy have met the same 
type of resistance as the information requests I just discussed, and so 
we are taking the next step in fixing that problem.
    I appreciate everyone's attendance at this hearing, and I now yield 
to the Ranking Member for an opening statement.

                                 <F-dash>
      Prepared Statement of Hon. Joe Donnelly, Ranking Democratic
          Member, Subcommittee on Oversight and Investigations
    Thank you Mr. Chairman.
    H.R. 2470, a bill which I recently introduced, will increase the 
authority given to the Interagency Program Office (IPO).
    The IPO is charged with making decisions on behalf of DoD and VA 
Secretaries to ensure the electronic health record initiative succeeds.
    Currently, the IPO lacks the authority and clarity that the IPO is 
the single point of contact on EHR issues. My bill addresses this 
serious concern.
    I am also aware that although Public Law 110-181 indicates the IPO 
was developed to implement the on-going efforts to establish the 
Electronic Health Care Record initiative, this office is often bypassed 
by the VA and DoD.
    It seems to me that there is little interest by both VA and DoD to 
incorporate the IPO in ongoing EHR efforts.
    For this and other reasons I introduced H.R. 2470, the E-SERV Act. 
This bill empowers the Interagency Program Office with the clear 
authority to provide our servicemembers and veterans the 21st Century 
Electronic Health Record they deserve.
    Thank you and I yield back.

                                 <F-dash>
               Prepared Statement of Hon. Jerry McNerney
    I would like to thank Chairman Johnson for holding this legislative 
hearing. Having the Subcommittee conduct a legislative hearing will 
provide us the ability to conduct oversight and also to review 
legislation that affects many of the issues that fall within our 
jurisdiction.
    Today's hearing includes several bills. Among others, we will 
evaluate a proposal to change policies affecting claimants seeking 
benefits. We'll also discuss legislation that addresses ongoing 
concerns regarding the need to improve the Interagency Program Office.
    In addition, one of the bills included in today's hearing is H.R. 
2243, the Veterans Employment Promotion Act, which I introduced. My 
bill directs the Secretary of Labor to make public the veterans' 
employment data reported by Federal contractors and subcontractors.
    In the past, this Committee has heard concerns from veteran service 
organizations and other stakeholders about compliance with veterans 
hiring policies. The purpose of the VETS-100 report is to ensure that 
Federal contractors comply with relevant laws. Through this report, 
contractors submit certain information to the Department of Labor, 
including information about new hires who are veterans.
    By making the information contained in these reports publicly 
available, my bill increases much needed oversight and accountability. 
This bill is a step in the right direction that will help us as we 
continue to seek ways to improve enforcement of Federal contractor 
compliance.
    Thank you Mr. Chairman, and I look forward to today's discussion of 
H.R. 2243 and the other bills we are considering.
    I yield back.

                                 <F-dash>
  Prepared Statement of Thomas Murphy, Director, Compensation Service,
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify and present the views of the Department of 
Veterans Affairs (VA) on several legislative items of great interest to 
Veterans and the Department. Joining me today are Jack Thompson, Deputy 
General Counsel, and Roger Baker, Assistant Secretary for Information 
and Technology.
                               H.R. 2383
    H.R. 2383, the ``Modernizing Notice to Claimants Act,'' would amend 
38 U.S.C. Sec. 5103 to authorize the Secretary of Veterans Affairs to 
use electronic communication to provide required notice to claimants 
for benefits under laws administered by the Secretary. This bill would 
also amend 38 U.S.C. Sec. 5103A to clarify the Secretary's duty to 
assist claimants in obtaining relevant private records.
    VA fully supports this bill, which would significantly enhance the 
efficiency by which VA carries out its duty to notify and assist under 
the Veterans Claims Assistance Act of 2000 (VCAA). Although the VCAA 
requirements are designed to promote more efficient and effective 
development of claims, some aspects of those requirements, as 
interpreted by the courts over the last decade, have had the unintended 
effect of complicating and unnecessarily delaying the claims process 
while confusing Veterans and their dependents. This bill would 
represent a valuable step forward in addressing those concerns.
    Section 2 of the bill would amend 38 U.S.C. Sec. 5103 to provide 
increased flexibility in how VA delivers notice to claimants of the 
information and evidence necessary to substantiate their claims. It 
would authorize VA to provide notices through the most expeditious 
means available, including electronic communication, which is critical 
during this time of transformation to a paperless claims process. This 
will enable VA to maximize the successes of Information Technology 
initiatives such as the eBenefits portal, the Veteran Benefits 
Management System, and the Veterans Online Application.
    By eliminating the language that directs VA to issue VCAA notices 
``upon receipt of a complete or substantially complete application,'' 
section 2 of this bill would also significantly increase efficiency in 
the beginning stages of the claims process. For example, by attaching 
VCAA notices to certain forms or sending a Veteran an electronic VCAA 
notice at the same time VA sends the claimant an application, VA could 
shorten the overall development time associated with the claim. In 
these instances, VA would essentially be initiating development before 
the claim is received in the regional office. Once the claims folder is 
handled for the first time by a Veterans Service Representative (VSR), 
the VCAA notice obligation would be fulfilled, and other actions to 
move the claim along could be readily taken. This added flexibility 
would eliminate a significant number of VSR actions and significantly 
shorten overall claim development time.
    As a technical matter, we note that section 2(1)(B) of the draft 
bill would revise 38 U.S.C. Sec. 5103(a)(1) by replacing ``notify the 
claimant'' with ``provide to the claimant.'' For clarity, we suggest 
inserting the term ``notice'' following ``provide'' or, alternatively, 
before the phrase ``of any information,'' as it appears in section 
5103(a)(1).
    Section 2 also would eliminate a particular delay in the claims 
process that occurs when VA receives a subsequent claim while the same 
type of issue from a prior claim is pending before VA. This routinely 
occurs when a Veteran files a multi-issue claim and a few months later, 
while that claim is still pending, files another claim involving the 
same type of issue as in the currently pending claim. In many of these 
cases, the subsequent claim can be decided, or at least developed, 
along with the previously pending issues. However, the development and 
decision are delayed in order to provide a new, but essentially 
duplicative ``VCAA notice'' to the Veteran on the subsequent claim.
    Sections 2 and 3 of this bill would add provisions to both 38 
U.S.C. Sec. 5103 and 5103A to make it clear that VA's duty to notify or 
duty to assist does not apply to any claim or issue when the benefit 
sought can be awarded based on the evidence of record. This would 
eliminate significant delays that occur when claims are unnecessarily 
developed.
    Section 3 of the bill would clarify that ``reasonable efforts'' to 
assist the claimant in retrieving his or her private records would 
require VA to make no less than two requests to a custodian of the 
claimant's records. This reasonable clarification would help ensure 
that VA is following the intent of Congress.
    Section 3 would also direct the Secretary to encourage claimants to 
submit private medical evidence if such submission does not burden the 
claimant. VA would, however, continue to assist the claimant if he or 
she requests such assistance. This approach would empower the claimant 
to take an active role with VA in preparing his or her claim for a 
decision. In many instances, Veterans want to procure their own records 
and can do so more quickly than VA. However, under the current VCAA 
process, many Veterans feel obligated to fill out the release forms VA 
provides to permit VA to procure such records. This results in delays 
in the claims process because of duplicate or unnecessary requests to 
custodians of records. This bill allows VA to enhance its communication 
with claimants and offer them clear options as to the types of VA 
assistance they want or need. In crafting regulations to implement this 
authority, VA would emphasize the valuable role the claimant may play 
in retrieving records while at the same time ensuring that the claimant 
understands VA's readiness to assist as necessary. This approach will 
better balance the responsibilities of both parties to obtain evidence 
in support of a claim.
    One of VA's claim cycle time indicators, ``average days awaiting 
development,'' was 53 days for the national pending inventory of 
802,391 rating claims at the end of June 2011. The efficiencies gained 
through this bill would significantly reduce the time it takes to 
initiate development to a much more reasonable time period. 
Furthermore, by attaching VCAA notices to claims forms, VA could 
shorten development time. This improvement to the claims process is 
paramount to VA's ability to achieve its 125-day goal for completion of 
rating claims.
    There are no benefit or administrative costs associated with this 
proposal. The enactment of this bill will not affect benefit amounts 
and does not affect obligations in any given fiscal year.
                               H.R. 2243
    H.R. 2243, the ``Veterans Employment Promotion Act,'' would amend 
38 U.S.C. Sec. 4212(d) to require the Secretary of Labor to publish on 
an Internet Web site certain information about the number of Veterans 
who are employed by Federal contractors. VA defers to the Department of 
Labor to provide views on this bill.
                               H.R. 2388
    H.R. 2388, the ``Access to Timely Information Act,'' would amend 
title 38, and also effectively amend the Privacy Act to require VA to 
disclose sensitive personal information to the Chairs and Ranking 
Members of the House and Senate Veterans' Affairs Committees and 
Subcommittees, or to anyone else the Chairs and Ranking Members 
designate to make such requests. Because the bill would diminish the 
privacy rights of Veterans, who deserve the same information 
protections enjoyed by other Americans, we strongly oppose its 
enactment.
    VA appreciates the important oversight responsibilities shared by 
this Committee and its Senate counterpart. The Department expends 
considerable effort in responding to Committee requests for 
information. However, current laws are intended to ensure that the 
privacy rights of individuals are respected during the exercise of 
legitimate Congressional oversight. First, absent express waivers by 
affected individuals, the laws permit agencies to disclose records 
protected by the Privacy Act and title 38 to only the Congressional 
Committees or Subcommittees themselves that have oversight authority or 
persons acting under a grant of authority from the Committees, which 
has long been interpreted to mean only the chairpersons because only 
they are authorized to act on those bodies' behalves. Second, the 
disclosures may be made only in furtherance of legitimate oversight 
activities that are within the particular Committees' purviews.
    In order to document and ensure the validity of such requests, VA 
requires that they 1) be made in writing, 2) be signed by the Chair of 
the Committee or Subcommittee, and 3) specify how the information is 
relevant to a matter within the oversight jurisdiction of the Committee 
or Subcommittee. These requirements give assurances to VA employees 
that the requests can be lawfully fulfilled, and also create a record 
that can be used in the event the employees' authority to disclose the 
information is later questioned. This latter point is significant in 
that the penalties for unlawful disclosure can be severe. An agency 
employee who discloses information in violation of an applicable 
confidentiality statute or regulation may be subject to criminal and 
civil penalties. Furthermore, the Department may be subject to civil 
liability under these provisions. Absent the explicit prior written 
consent of the Veteran, the Department must carefully evaluate the 
contemplated disclosure and the particular oversight purpose for which 
the information is sought, and make an informed and reasoned decision 
as to whether the release qualifies under any of the exceptions. Often, 
upon negotiation with an oversight Committee, it may be determined that 
the request can be satisfied without compromising the privacy of an 
individual Veteran.
    Veterans' Affairs Committee staff frequently request Veterans' 
medical records, which contain among the most sensitive and private 
information imaginable. When medical records are shared 
inappropriately, it can cause a patient great harm ranging from 
embarrassment and social stigma to loss of a job and insurance. VA 
actively reaches out to Veterans to encourage them to seek health care. 
Because of social stigma associated with many medical and psychiatric 
conditions, patients often conceal their illnesses and treatment from 
their employers and even their immediate families, and they have a 
well-deserved expectation that their records will be protected from 
disclosure to the general public. Any release of Veterans' health 
information outside the Department--even when permitted by statutory 
exception--has the potential for undermining Veterans' trust in VA.
    Current law sufficiently balances Veterans' personal-privacy 
interests and the need for congressional oversight. All that VA 
requires is a brief request, signed by the chair of a Committee or 
Subcommittee, sufficient to allow VA to exercise its responsibility to 
determine whether the invasion of the Veterans' privacy is necessary to 
satisfy the oversight purpose. A single such request can seek records 
concerning multiple individuals. The proposed legislation would remove 
existing legal protections for only one class of individuals--our 
Nation's Veterans--by requiring the Department to deem valid every 
request made by a chair, by a Ranking Member, or by an unlimited number 
of individuals delegated by a chair or Ranking Member of the two 
Committees.
    By mandating VA to accommodate any such request without even 
inquiring whether the information requested is necessary or within a 
Committee's or Subcommittee's jurisdiction, the legislation would strip 
Veterans of the assurance that VA will share only the personally 
identifiable health information which it has verified as being truly 
necessary for congressional oversight purposes. In fact, the 
legislation would confer upon any person the authority to make such a 
request as long as the Committee chair or Ranking Member so delegates, 
and places no restrictions on who may receive this highly sensitive 
information. As a result, the draft bill has at least some potential 
for affecting Veterans' willingness to supply VA health-care providers 
with full and accurate health information, and could undermine their 
trust in the VA health-care system. Sensitive information is, of 
course, also maintained by other elements of the Department, including 
in VBA claims files, which include not only medical records but also 
information concerning home addresses, social security numbers, and 
banking information.
    Events of the not-too-distant past were urgent reminders to our 
Department concerning the need to safeguard the sensitive personal 
information with which we are entrusted. We took those events 
seriously, and along with Congress, have worked to significantly 
enhance VA's protection of Veterans' personal information. We cannot 
support legislation which would in any way diminish the existing legal 
protections this information rightfully enjoys.
                               H.R. 2470
    H.R. 2470, the ``Ensuring Servicemembers' Electronic Records' 
Viability (E-SERV) Act,'' would amend Section 1635(b)(2)(A) of the 
Wounded Warrior Act (title XVI of Public Law 110-8 181; 10 U.S.C. 1071 
note) to alter the role, functions and oversight of the Interagency 
Program Office (IPO) of the Department of Defense (DoD) and the 
Department of Veterans Affairs with respect to electronic health 
records. It would also transfer control and responsibility of vital and 
sensitive programs for VA's electronic health records away from the 
clinicians and VA IT specialists who have made it a success.
    Mr. Chairman, while the VA agrees that leadership and 
accountability will be vital to delivering an integrated Electronic 
Health Record (iEHR), VA opposes H.R. 2470 as written. Together with 
our partners in DoD, we have created a governance structure to ensure 
delivery of an iEHR that will be comprehensive and inclusive. The IPO 
office has been placed at the head of the structure reporting to the 
Secretaries of Veterans Affairs and Defense, with the iEHR Advisory 
Board and the Health Executive Council performing a necessary oversight 
role. The bill would alter this infrastructure with what we see as no 
discernable benefit. It would shift our focus from developing an 
effective and safe iEHR to reorganizing the governance structure 
already in-place.
    H.R. 2470 would also transfer control of the VA's legacy EHR, VistA 
to the IPO. VistA is at the heart of what VA does; delivering health 
care to our Nation's Veterans. VistA is at the forefront as a model 
system that has a 99.95 percent `up-time' nationally and is highly 
responsive. To transfer all responsibility for the ``development, 
implementation, and sustainment of all electronic health record systems 
and capabilities'' away from VA to the IPO would create disruption and 
uncertainty in the management of the most vital set of tools VA uses to 
deliver world-class care for our Veterans.
    While we have strong concerns regarding this bill, VA is always 
open to discussing our joint efforts with our DoD partners to advance 
iEHR capabilities and the important work of the IPO with the Committee.
    This concludes my statement, Mr. Chairman. Thank you for the 
opportunity to testify. I would be happy to entertain any questions you 
or the other Members of the Subcommittee may have.

                                 <F-dash>
     Prepared Statement of Hon. Elizabeth A. McGrath, Deputy Chief
             Management Officer, U.S. Department of Defense
    Chairman Johnson, Ranking Member Donnelly, and Members of this 
distinguished Committee thank you for extending the invitation to the 
Department of Defense to address your recently introduced bill, ``The 
Ensuring Servicemembers' Electronic Records' Viability (E-SERV) Act,'' 
H.R. 2470. To improve the electronic health information systems and 
capabilities of the Department of Defense and the Department of 
Veterans Affairs.''
    The Department of Defense does not support H.R. 2470 as currently 
written. While we appreciate the Committee's desire to be helpful in 
strengthening the role of the Interagency Program Office (IPO) for 
electronic health records, we believe that existing legislation on this 
subject provides sufficient authority and flexibility to the 
Secretaries of Defense and Veterans Affairs to effectively administer 
the integrated electronic health record way ahead.
    Section 1635 of the National Defense Authorization Act for FY 2008 
established the IPO and vested it with authority:

    A.  To act as a single point of accountability for the Department 
of Defense and the Department of Veterans Affairs in the rapid 
development and implementation of electronic health record systems or 
capabilities that allow for full interoperability of personal health 
care information between the Department of Defense and the Department 
of Veterans Affairs.
    B.  To accelerate the exchange of health care information between 
the Department of Defense and the Department of Veterans Affairs in 
order to support the delivery of health care by both Departments.

    Section 1635 therefore tasked the IPO with a dual role: to 
collaborate with the Departments in order to accelerate the exchange of 
health care information between them, and to serve in an oversight 
capacity to ensure that interoperability is achieved.
    The two Departments are currently revising the IPO's charter to 
reflect the direction of the Secretaries of Defense and Veterans 
Affairs and take advantage of the authority provided in Section 1635. 
The revised Charter will be complete in August 2011. The Department of 
Defense does not believe that additional legislation is necessary, and 
in fact, could jeopardize the progress that has recently been made.
    Additionally, the Department is concerned by the provision in H.R. 
2470 that would make the IPO the only office of the Department of 
Defense and the Department of Veterans Affairs responsible for 
electronic health record capabilities, including any such capabilities 
existing before January 16, 2008. We believe that this would divert the 
attention of the IPO toward day to day management of legacy systems and 
make it less effective in what we view as its primary and proper 
function of developing the integrated electronic health record way 
ahead.
    Finally, let me say that although we do not support H.R. 2470 as 
currently written, I am glad to appear before the Committee today to 
discuss the growing role of the IPO and, most importantly, to emphasize 
to you the partnership, level of effort and shared sense of urgency 
that exist between the Department of Defense and the Department of 
Veterans Affairs regarding the vital need to achieve a common 
integrated electronic health record for our servicemembers and 
veterans. We strongly believe that we are on the right track and that 
sufficient legislation is already in place to ensure that we reach our 
mutual goal.
    I look forward to your questions.

                                 <F-dash>
        Prepared Statement of Debra M. Filippi, Former Director,
     U.S. Department of Defense/U.S. Department of Veterans Affairs
                       Interagency Program Office
                           Executive Summary
    Since it's inception, the IPO has had a positive impact on 
enhancing the interagency approach to electronic health record (EHR) 
development for DoD and VA. The IPO created interagency plans and 
schedules that provided a roadmap of joint activities, established a 
multi-tiered governance approach that guided the interagency decision 
process, and provided a neutral meeting environment that minimized 
biases and fostered accountability between the two Departments in the 
execution of their separate electronic health record initiatives. 
However, these steps were marginal in comparison to what could have 
been accomplished had the appropriate functions and necessary 
authorities been assigned to the IPO to fulfill Section 1635 of the 
2008 NDAA law. The role and mission of the IPO, defined in a Charter 
signed September 2009 by the two Deputy Secretaries, was to be the 
``single point of accountability for coordination and oversight,'' not 
the ``single point of accountability for . . . development and 
implementation'' of EHR capability as stated in the law. Furthermore, 
the authorities necessary to execute Section 1635 were specifically 
retained by the DoD and VA program offices and NOT conveyed to the IPO. 
Accordingly, the control of the budget, contracts and technical 
development remained with the two program offices. As a result, the IPO 
was not empowered by the departments with the necessary functions or 
authorities to execute the intent of section 1635. Initiatives, such as 
the James A. Lovell Federal Health Care Center (JALFHCC) project in N. 
Chicago, would have benefitted greatly from converged solutions 
fostered by this empowered interagency organization.
    Congress established the IPO to improve the fielding of an 
interoperable electronic health record capability for those who have 
served our country so nobly. To date, DoD and VA have made strides in 
sharing pertinent components of electronic health information; however, 
the quantum leap for both organizations is to unite their development 
efforts as one organization and create a single, superlative electronic 
health record that by definition is interoperable and yields a 
transparent, effective and efficient capability for our servicemembers 
and veterans. The IPO is the medium for these two largest Federal 
Departments to merge their resources, their intellectual property and 
their spirit as force multipliers for operational as well as economic 
success. The promise of a fully empowered IPO is synergy, solidarity 
and unity between DoD and VA. The chosen path for the IPO was only a 
step in the right direction--a ``bunt'' in baseball parlance--that has 
resulted in modest progress. Now we need a home run: a single program 
office, embraced by both DoD and VA, empowered with the necessary 
authorities to develop, implement and sustain the best electronic 
health record capability for our military, veterans and their families. 
This draft legislation is the designated hitter for this home run. It 
declares to the Departments what is expected in establishing a true 
interagency program organization, to include the authorities necessary 
to execute the functions. The language serves as a template for the 
necessary modifications to the IPO Charter and obviates any conflict or 
resistance that may still exist in the current document or in the 
departments. The most important issue to be reconciled is who is the 
responsible party for the execution of the funding, for that 
organization is truly the one accountable for the interoperability of 
the EHR systems/capabilities for DoD and VA. This is not only about 
interoperability; it's also about pursuing economic-minded approaches 
to Federal Government best business practices. Creating the IPO was an 
innovative idea, one that will no doubt cast the mold for future 
Federal partnerships. I strongly endorse the passing of this language 
for the benefit of our military, veterans and their families.

                               __________

I. Introduction

    Chairman Johnson, Ranking Member Donnelly, thank you for this 
opportunity to provide testimony on the proposed changes to Section 
1635 of the 2008 National Defense Authorization Act to improve the 
electronic health information systems and capabilities of the 
Department of Defense (DoD) and the Department of Veterans Affairs 
(VA). I offer this testimony as the former Director of the Interagency 
Program Office (IPO) serving from October 2009 until June 2011. I 
retired from that post on June 3, 2011, after a fulfilling 34-year 
career with the Federal Government. It is my privilege to have this 
opportunity to provide remarks regarding the proposed legislation that 
would strengthen the authorities of the IPO to better serve our 
military, veterans and their families.
    Since it's inception, I believe the IPO has had a positive impact 
on enhancing the interagency approach to electronic health record (EHR) 
development for DoD and VA. The IPO created interagency plans and 
schedules that provided a roadmap of joint activities, established a 
multi-tiered governance approach that guided the interagency decision 
process, and provided a neutral meeting environment that minimized 
biases and fostered accountability between the two Departments in the 
execution of their separate electronic health record initiatives. By 
all accounts these are very important steps in fostering a more 
cohesive relationship between the two Departments that should improve 
the interoperability of electronic health records. However, these 
steps, while important, were marginal in light of what could have been 
accomplished had the appropriate functions and necessary authorities 
been assigned to the IPO to fulfill the NDAA requirement. The resources 
of the two departments could have been merged into one program office 
leveraging intellect, manpower and dollars for a single solution to EHR 
capabilities. Projects like the James A. Lovell Federal Health Care 
Center (JALFHCC) in N. Chicago would have had a greater commitment to 
converged solutions rather than duplicative products. Not only would a 
greater interoperability have been achieved but also more economic-
minded solutions would have prevailed. The language proposed by the 
Committee reflects the original intent of the 2008 Law; let's move 
forward to empower the IPO with the appropriate roles, responsibilities 
and authorities. For the benefit of our servicemembers and our 
veterans, I strongly endorse the passing of this language.

II. Background

    The charter for the IPO implementing Section 1635 of the 2008 NDAA 
was signed in September 2009 by the Department Deputies. The IPO was 
cast in a ``coordination and oversight'' role for the two department 
program offices versus that of ``the'' single, accountable program 
office. Also specified in the charter, the control of the budget, 
contracts and technical development remained with the two program 
offices. As a result, each Department continued to pursue separate 
strategies and implementation paths that were true to their desired 
approaches rather than coming together to build a unified, 
interoperable approach. Additionally, the governance structure for 
leading the interagency initiatives was driven by a Committee of 
department senior executives. There was no interagency decision 
authority below this Committee. As a result, the departments maintained 
the functions and authority--and therefore the accountability--for 
their individual EHR efforts; it was not instilled in the IPO.
    I believe the role intended for the IPO in Section 1635 of the 2008 
NDAA was to be the sole program office for EHR initiatives and, if 
chartered accordingly, would become that single point of 
accountability, leveraging the intellect and experience of the DoD and 
VA assets to yield one strategy, one design and one implementation of 
an EHR capability. Providing one solution versus two compatible 
solutions would establish the critical bedrock for a seamless, premier 
health care continuum that our servicemembers, veterans and their 
families so deeply deserve. For this to be effective, the Departments 
must empower the interagency program office with planning, programming, 
budgeting and execution authorities commensurate with the mission of 
accountability. These authorities will be the very tools used by the 
IPO to accomplish the necessary program management activities for the 
EHR, unite the efforts of the two Departments and implement an 
integrated, interoperable capability.
    The draft legislation clarifies Congress' intent for the role of 
the IPO to be the ``single program office'' in the development of the 
EHR capabilities. The language acknowledges that the necessary 
authorities--programming, budgeting and execution--MUST be vested in 
the IPO in order for it to successfully execute the role. It also 
clarifies that the IPO should indeed become the ``sole responsible 
office'' on behalf of DoD and VA and not be considered as a separate, 
third party organization to ``coordinate'' two distinct efforts. The 
draft language is pivotal in ensuring that the Departments shift from a 
two-department approach to a single interdepartmental approach with the 
IPO at the helm. In my opinion, the most important issue to be 
reconciled is who is the responsible party for the execution of the 
funding, for that organization is truly the one accountable for the 
interoperability of the EHR systems/capabilities for DoD and VA.
    Ideally, this interagency effort should be led by an executive from 
a third party Department such as Health and Human Services (HHS) or 
Office of Management and Budget (OMB) that would create a more neutral 
environment and obviate any concerns by either department of bias. 
However, if the Director of the IPO reported to the two Department 
Secretaries or their Deputies, each having equal authority over the 
Director as well as the Director having their support, this, too, would 
result in a more positive organizational alignment that would 
strengthen the effectiveness of a single, accountable program. The real 
key to success is that the two Departments turn to this organization as 
their ``go to'' asset, empowering them as their spokesperson, their 
program manager and their ``single point of accountability'' for EHR. 
Each Department must invest in this interagency organization and feel 
ownership and have the confidence in its ability to deliver on behalf 
of each.

III. Interagency Office Functions

    This proposed language is clear in describing what Congress 
intended for the IPO with respect to the EHR initiatives: ``. . . be 
the single program office''; ``. . . the function of the office shall 
be to develop, implement, and sustain electronic health record systems 
and capabilities for the Department of Defense and the Department of 
Veterans Affairs''; ``Sole responsible office . . . be the only office 
of the Department of Defense and the Department of Veterans Affairs 
responsible for electronic health record capabilities . . . .'' It is 
clear by these words that the IPO is intended to be the one and only 
program office responsible for developing and representing the EHR 
initiatives for both DoD and VA. The Charter stipulates that the IPO is 
the single point of accountability for ``coordination and oversight'' 
which established a very limited, passive role for the IPO. The IPO was 
not seen OR staffed as a program office responsible for the design, 
development, test, implementation and fielding of the EHR capabilities; 
instead, it was used more as a ``check point'' for the two Departments 
in reviewing plans, schedules and milestones after they were developed, 
resulting in a more inefficient and less effective interagency plan. 
For example, the Departments developed separate strategies for 
implementing the information technology (IT) capabilities that were to 
support the N. Chicago demonstration project, the James A. Lovell 
Federal Health Care Center (JALFHCC). These strategies were linked to 
each Department's health IT plans versus a joint JALFCC plan. At one 
progress review, The IPO questioned DoD and VA regarding their 
decisions to implement separate pharmacy capabilities rather than just 
one at N. Chicago. The Department representatives acknowledged that the 
chosen paths for each complimented their separate strategies and were 
committed accordingly. This approach ultimately resulted in a delay in 
the delivery of the pharmacy capability due to additional time needed 
to develop highly complex interfacing software to support the two 
systems. Additionally, in another function fielded at JALFHCC, Medical 
single sign on (MSSO), each Department implemented the same capability 
using two different commercial tools. This has resulted in a burden for 
the user to learn two different interfaces and missed opportunities to 
leverage contracts and other sustainment costs. Each of these examples 
illuminates the challenge to interoperability if the Departments 
continue separate development paths. Recently, the departments 
revisited these decisions and are now planning to field one pharmacy 
capability and converge on one MSSO tool. Ultimately, this is the right 
decision; however, now they are incurring additional expenses and a 
delay in fielding a capability that could have been avoided had the 
Departments been working together as a single program office with joint 
goals. One organization needs to be responsible for promoting common 
solutions for the same requirements or we will continue to be consumed 
by overbearing mediation that at best will result in lowest common 
denominator solutions--neither efficient nor effective for the 
taxpayer, veteran, military and their families.

IV. Authorities for the IPO

    All the critical authorities--program management, supervisory and 
most important, financial--remained under the control of the two 
separate Departmental program offices as stipulated by the charter: ``. 
. . DoD and VA will retain responsibility for . . . life cycle program 
management activities including financial management, IT systems 
development and implementation.'' This eliminated any ability of the 
interagency office to be accountable as envisioned by the Law. 
Furthermore, this language implied that the IPO was not a part of 
either Department, which represents the mindset of each department 
relative to the IPO. The IPO should be considered as the single program 
office for electronic health care records development and be vested 
with the appropriate authorities to execute that role. This would 
enable the IPO to perform the design, development, test, acquisition, 
implementation and sustainment of all electronic health record 
initiatives--all those activities reflective of a true program office. 
DoD and VA must embrace the IPO as ``their'' program office with all 
the same confidence and trust they have today in their individual 
program offices. Most importantly, the IPO MUST be given planning, 
programming, budgeting and execution authorities in order to be the 
single point of accountability. The proposed language does this and 
therefore should obviate any confusion or contradiction by the 2009 
Charter. The proposed language that calls for the IPO to ``be the 
single program office'' of DoD and VA, ``responsible for the 
development, implementation and sustainment of all electronic health 
record systems and capabilities'' greatly clarifies what Congress 
originally expected of the two Departments in empowering the IPO. This 
language should cause a shift in the ``center of gravity'' of the 
electronic health record initiatives from the DoD and VA program 
offices to that of the IPO. In addition to this proposed language, the 
most important mechanism necessary to execute this language is to 
assign the budget for EHR to the IPO, as proposed in the following 
words: ``. . . the budget materials submitted to the President by the 
Secretary of Defense and the Secretary of Veterans Affairs in 
connection with the submission to Congress, . . . each Secretary shall 
ensure that the Office is listed as a separate, dedicated budget 
line.'' To ensure the IPO is indeed vested with the Program Management 
and execution authorities for EHR, assign the EHR budgets from both 
Departments to the IPO. The current 2011 budget for the IPO is $14.6 
million, while the EHR budgets in DoD and VA are in the hundreds of 
millions of dollars. This is a clear indication that the Departments 
are executing the program management role of design, develop, test and 
implement, and the IPO is executing a very small coordinating role in 
the EHR effort. The resources that exist in the respective Department 
budget lines today should be ``merged'' into a single ``virtual line'' 
to be executed and accounted for by the IPO for the EHR program.

V. Supervision and Organization

    The hierarchy, mission and composition of the IPO organization are 
critical to its foundation and its success. Working across the two 
largest Departments in the Federal Government poses certain challenges 
to customary practices, but they are not insurmountable. The reporting 
relationship of the IPO must connote trust and assurance that the 
interests of the two Departments will be honored and supported and, 
moreover, that the IPO is seen as the Department's asset versus an 
outsider. The Director should be the ``go to person'' for Department 
Secretaries and Deputy Secretaries rather than other Department 
executives. This will reflect that the effort is a single, joint 
initiative and establish a single information loop that is consistent 
and responsive to both Department leaders. In the past, each Department 
has had a separate spokesperson they turn to on the various EHR 
projects (e.g., Virtual Lifetime electronic Record (VLER), N. Chicago, 
EHR) and the message was often inconsistent or tailored to the specific 
Department. This caused much confusion and posed challenges for 
establishing a baseline platform to report from and measure progress 
against. The IPO should be the organization responding to all inquiries 
and issues associated with the electronic health record initiatives on 
behalf of DoD and VA. They should be the ``sole responsible office'' 
contacted by any outside entity, to include Congress, OMB, and GAO to 
respond on all EHR inquiries. The mission needs to be clear, 
unambiguous and universally supported throughout the two Departments, 
particularly at the execution level.
    The reporting relationship for the IPO has endured ambiguity and 
ineffectiveness. As a DoD employee, the Director reports to and is 
rated by the Undersecretary for Personnel and Readiness. This has 
caused some concern by the VA leadership that the IPO was more 
favorable to DoD. As an interagency initiative legislated to execute 
Title 10 and Title 38 authorities on behalf of DoD and VA, the IPO 
needs to be organized equitably so the Departments trust that the 
organization serves both with a balanced perspective. The IPO did not 
have the visibility with the Department executives as the interagency 
organization responsible for EHR. If the IPO reported to a third-party 
Federal organization outside of DoD or VA, the Departments may be more 
trusting of the IPO. However, an equally suitable alternative would be 
to have the Director report to the Department Secretaries to instill 
confidence and trust that this organization is acting in their best 
interests. Stipulating in the draft legislation that the IPO Director 
report to both Secretaries or Deputy Secretaries with each having 50 
percent input to the performance review of the Director is a 
significant step toward building the needed trust. This will also 
bolster the Director to be the trusted agent on the EHR subject matter 
with top Departmental Executives and dissuade the Secretaries from 
turning to other department executives within DoD or VA.
    Organizationally, the IPO should be structured as any other 
organization with the Deputy Director reporting to the Director, the 
next-tier employees reporting to the Deputy, and so on down the 
hierarchy. This reinforces the unity of chain of command within the 
IPO, regardless of whether they occupy DoD or VA billets. The current 
billet structure for the IPO consists of 10 DoD employees and 10 VA 
employees, plus 2 Senior Executives--the Director from DoD and the 
Deputy Director from VA. However, most of the VA billets (7) remained 
vacant since the inception of the IPO as a result of no hiring 
authority. Additionally 5 of the 10 VA billets were downgraded to GS-14 
and -13 levels, while DoD rated all of their billets at the GS-15 
level. This billet structure is austere in comparison to that of the 
Department program offices and clearly indicates that a very modest 
role was intended for the IPO. Additionally, this low-graded structure 
made it very difficult for the IPO to engage peer-to-peer with the 
Departments
    A more effective way to provide staffing to the IPO is to merge the 
personnel from the DoD and VA program offices into the IPO so that it 
is a true ``unity of effort.'' Collocate the personnel; capitalize on 
the intellectual property that already exists in the Department PMOs 
and position DoD and VA personnel to start thinking as one team. In 
this scenario, the discussions, the thinking and the solutions will 
take on a solidarity that will result in a cohesive end-to-end solution 
for the military and veterans. ``They'' will become ``us,'' ``their 
ideas'' will become ``our ideas'' and the solutions will be joint.

VI. Conclusion

    Congress established the IPO to improve the fielding of an 
interoperable electronic health record capability for those who have 
served our country so nobly. To date, DoD and VA have made strides in 
sharing pertinent components of electronic health information; however, 
the quantum leap for both organizations is to unite their development 
efforts as one organization and create a single, superlative electronic 
health record that by definition is interoperable and yields a 
transparent, effective and efficient capability for our users. The IPO 
is the medium for these two largest Federal Departments to merge their 
resources, their intellectual property and their spirit as force 
multipliers for operational as well as economic success. The promise of 
the IPO is synergy, solidarity and unity between DoD and VA. The 2008 
law created an innovative yet startling approach to the 
interdepartmental development environment that challenged the accepted 
practices of both Departments. The chosen path for the IPO was only a 
step in the right direction--a ``bunt'' in baseball parlance--that has 
resulted in modest progress. Now we need a home run: a single program 
office, embraced by both DoD and VA, empowered with the necessary 
authorities to develop, implement and sustain the best damned 
electronic health record capability for our military, veterans and 
their families. This draft legislation is the designated hitter for 
this home run. It declares to the Departments what is expected in 
establishing a true interagency program organization, to include the 
authorities necessary to execute the functions. The language serves as 
a template for the modifications to the IPO Charter as well as the 
streamlining of fielding EHR capability. This is not only about 
interoperability; it's also about pursuing economic minded approaches 
to Federal Government business practices. Creating the IPO was an 
innovative idea, one that will no doubt cast the mold for future 
Federal partnerships.
    Thank you for the privilege of providing testimony on this subject. 
I wish you and the Departments all the best in achieving success on 
this very worthy cause.

                                 <F-dash>
       Prepared Statement of Jeffrey C. Hall, Assistant National
            Legislative Director, Disabled American Veterans
                           EXECUTIVE SUMMARY
    H.R. 2383--the Modernizing Notice to Claimants Act would make 
changes to title 38, United States Code, sections 5103 and 5103A 
altering the Department of Veterans Affairs' current duty to notify and 
assist claimants seeking disability compensation benefits.

        <bullet>  DAV believes the intent of this legislation is to 
        help streamline and speed the claims process in order to reduce 
        the backlog of claims for disability benefits; however, we are 
        concerned that the new regulatory provisions in the bill might 
        be implemented by VA in a way that could weaken the ability of 
        some veterans to receive the full benefits to which they are 
        entitled.

    H.R. 2388--the Access to Timely Information Act, would codify 
certain procedural steps that VA must follow in response to information 
requests from certain members of the Veterans' Affairs Committees of 
the House and Senate. DAV does not oppose enactment of this 
legislation.
    H.R. 2243--the Veterans Employment Promotion Act, would modify 
title 38, United States Code, section 4212(d) requiring the Department 
of Labor (DOL) to publicly report via the Internet the information 
contained in the VETS-100 or VETS-100A reports submitted annually by 
Federal contractors to DOL. DAV does not oppose enactment of this 
legislation.
    Draft Legislation--intended to improve the electronic health 
information systems and capabilities of the Department of Defense (DoD) 
and the Department of Veterans Affairs (VA). If enacted, this 
legislation would amend Public Law 110-181 (the ``Wounded Warrior 
Act'') to implement a fully interoperable electronic health record to 
serve both departments. DAV recommends the Subcommittee conduct a study 
as to its potential unintended effects on the basic functions of this 
and the authority Congress intended for VA's Chief Information Officer.

                               __________

    Chairman Johnson, Ranking Member Donnelly and Members of the 
Subcommittee:
    Thank you for inviting the Disabled American Veterans (DAV) to 
testify at this legislative hearing of the Subcommittee on Oversight 
and Investigations. As you know, DAV is a non-profit organization 
comprised of 1.2 million service-disabled veterans and focused on 
building better lives for America's disabled veterans and their 
families. I am pleased to be here today to present DAV's views on 
legislation being considered by the Subcommittee.
    H.R. 2383, the Modernizing Notice to Claimants Act, would make a 
number of changes to the Department of Veterans Affairs (VA) current 
duty to notify and assist claimants seeking disability compensation 
benefits. Specifically, H.R. 2383 would amend Sections 5103 and 5103A 
of title 38, which were the central provisions of the Veterans Claims 
Assistance Act (VCAA) of 2000.
    Mr. Chairman, while we believe that the intent of your legislation 
is to help streamline and speed the claims process in order to reduce 
the backlog of claims for disability benefits, we have serious concerns 
about whether some of the new regulatory provisions in the bill might 
be implemented by VA in a way that could weaken the ability of some 
veterans to receive the full benefits to which they are entitled. As 
currently drafted, H.R. 2383 would change or eliminate a number of 
duties and responsibilities that VA is now required to perform in 
notifying and assisting a claimant when a claim for benefits is 
received. Taken together, and in the context of the large backlog of 
claims VA is focused on reducing, these regulatory changes could create 
opportunities for VA to speed claims through the process, regardless of 
whether they have provided sufficient notice and assistance to ensure 
that the veterans receive the maximum benefits to which they are 
entitled.
    Under current law, when a claim for benefits is received by VA, the 
Secretary is required to send a notice to the claimant, often referred 
to as a ``VCAA notice'' (referring to Public Law 106-475, which serves 
to acknowledge the claim was received, state the issue or issues being 
claimed, and lists the evidence the claimant wishes to be considered. 
The VCAA notice also informs a claimant if there is any additional 
information or evidence VA requires, such as private medical treatment 
records, and requests that the claimant complete and return a VA Form 
21-4142 (``Authorization and Consent to Release Information'') so that 
VA is authorized to obtain such private medical treatment records. The 
claimant is asked to include detailed information regarding health 
provider, facilities, findings and diagnoses. The claimant is also 
instructed to identify any VA medical treatment, including the dates 
and specific facilities, so VA can also obtain any such records. 
Additionally, the claimant is informed he or she may provide their own 
statement regarding the claimed condition or conditions, as well as any 
lay statements from persons with knowledge of how the claimed condition 
or conditions may affect the claimant.
    The VCAA notice includes specific time periods in which additional 
information or evidence must be received and informs the claimant of 
what actions VA has already taken, such as requesting records or a 
medical examination from the VA medical center. The notice informs the 
claimant that should the VA medical examination be missed without good 
cause, VA may move forward and decide the claim based on the evidence 
of record.
    The VCAA notice explains what evidence is needed to support any 
claim for service-connection, secondary service-connection, increased 
evaluations, individual unemployability, or other claims. The claimant 
is also informed of VA's responsibility to assist them and the 
reasonable efforts they will take in obtaining evidence, as well as 
explain the role the claimant can play to ensure all relevant evidence 
is submitted for consideration. VCAA notice also explains how VA 
determines a disability rating and determines an effective date. 
Finally, each VCAA notice contains a VCAA Notice Response Form, which 
identifies the date of claim and provides a brief explanation regarding 
the submission of any additional information or evidence. If the 
claimant has nothing further to submit in support of the claim, he or 
she may elect to have the claim decided as soon as possible, which may 
alleviate unnecessary delays in processing; or the claimant may elect 
to submit additional information or evidence.
    While there are certainly improvements that can be made to the 
current VCAA notice, DAV believes that on balance it provides 
claimants, especially unrepresented claimants, with valuable 
information to help them submit stronger claims leading to more 
accurate results. Prior to enactment of the VCAA, notification to a 
claimant was generalized and limiting, causing difficulty and confusion 
for both the claimant in filing and VA in developing and adjudicating 
claims. The intent of the VCAA was to fully inform a claimant about the 
process VA would follow deciding their claim. Taken together, the 
notification and duty to assist requirements have served to temper the 
tremendous pressure VA and VA employees have been and are currently 
under to speed claims through the process in order to reduce the 
backlog, rather than to decide each claim right the first time. For 
this reason, we urge this Subcommittee and the full Committee to move 
cautiously in considering changes to these fundamental tenets of 
veterans' rights.
    Mr. Chairman, the bill would remove the requirement that VCAA 
notices be provided ``upon receipt'' of a claim, thereby allowing VA 
greater flexibility in the timing of such notice. Such a change would 
allow VA to attach general notice statements to claims forms 
themselves, thereby eliminating one of the first steps taken in the 
development part of claims processing. However, this revised notice 
process would eliminate some of the benefits of the current system. For 
example, current VCAA notices contain not just generic boilerplate 
language about how claims are substantiated, but also individualized 
information about exactly what evidence has been submitted, what 
evidence VA will seek and what evidence the claimant must seek or 
authorize VA to obtain. As a former National Service Officer (NSO) for 
DAV, I can attest that having such information from VA allowed us to 
better represent veterans. We are concerned that this and other efforts 
to reduce VCAA notice to generic, nonspecific information will 
significantly reduce its value in assisting veterans who file claims. 
We also have concerns about how this would be implemented when filing 
electronically over the Internet, an environment where users have 
become accustomed to checking the box on license and other disclaimer 
agreements without first reading them. How such change would be 
implemented must be spelled out in greater detail in the legislation to 
meet the variety of circumstances. Finally, the VCAA notice is often 
the only acknowledgement a veteran may get that his claim has been 
received by VA, a basic piece of information most veterans want and 
should have as they navigate their way through the often frustrating 
process.
    Mr. Chairman, DAV agrees that VA must have the ability to fully 
utilize electronic communication; however we have concerns about the 
language proposed to achieve this goal. H.R. 2383 would amend Section 
5103 to require VA to send notice, ``. . . by the most expeditious 
means available, including electronic notification or notification in 
writing.'' Once again, we believe the only way to reduce the backlog is 
to create a system designed to get claims done right the first time, 
not just get them done quickly. As such, we believe that notice should 
be sent by the most ``effective'' means, not simply the most 
``expeditious'' means. For many veterans that may well be by way of 
electronic communication; but others may strongly prefer written 
communication. We would recommend that this language be changed so that 
rather than direct VA to use the quickest means, they instead seek to 
use the most effective means. Further, just as many of us are given 
such a choice in communicating with our banks and paying bills, so too 
should veterans be given the choice to elect the best method for VA to 
communicate with them.
    H.R. 2383 also proposes to waive VA's obligation to send a VCAA 
notice to a claimant who has a pending claim for the same type of 
issue, such as service-connection, and was provided one for that prior 
claim. This provision seeks to eliminate unnecessary and duplicative 
notices being sent to a claimant when the previous notice provided the 
``information and evidence necessary to substantiate such subsequent 
claim.'' While we certainly agree with the goal of eliminating 
redundant mailings, it is not clear how broadly VA might seek to 
implement this provision and we would recommend that more specific 
definition or description be added to the legislation to clarify when 
such notice requirements would be waived. We are particularly concerned 
about unrepresented veterans who may have failed to fully understand 
the notice sent for the pending claim and will receive no further 
information to help guide them how to effectively support their new or 
additional claim.
    The legislation would also eliminate the requirement of sending a 
VCAA notice to a claimant should the VA be able to ``. . . [a]ward the 
benefit sought based on the evidence of record.'' Though DAV is 
supportive of the intent of this section of the legislation--to provide 
veterans with the benefits to which they are entitled at the earliest 
stage in the claims process--we have concerns about how this would be 
implemented in the field. For example, many claims are for conditions 
that have more than one possible disability rating, and it is important 
that VA not waive its duty to notify and assist claimants unless they 
are awarding the full benefit to which the veterans is entitled. In an 
environment where eliminating the backlog is VA's mantra, we are 
concerned that such new waiver authority would create incentives and 
opportunities for claims to be awarded at the minimum level for a 
condition when justified by current evidence, even if there is some 
likelihood that further development might lead to a higher rating. Even 
when a claim for service-connection is granted, the claimant may 
disagree with the disability percentage assigned and respond with a 
notice of disagreement seeking a higher rating. A claim for service-
connection and a claim for increased rating are separate types of 
benefits sought by claimants. Under the proposed legislation, we feel 
this could be construed as necessitating a separate claim for a higher 
evaluation and forfeit entitlement to the effective date of the 
original claim. Likewise, we have concerns as to how VA will be 
affected when a claim is received for different types of benefits, such 
as a claim for service-connection and increased rating of an already 
established service-connected condition.
    We are also concerned that such waiver authority might create 
disincentives to inferring secondary conditions to conditions that are 
already service-connected. Rather than leaving this language open to 
interpretation, DAV recommends that the language be changed to make 
clear that such a waiver of VA's obligations should only occur when the 
``maximum'' benefit sought can be awarded, including benefits for 
inferred and secondary conditions.
    Section 3 of H.R. 2383 would similarly allow VA to waive its ``duty 
to assist'' in obtaining private records when they can award the 
benefit sought based on the evidence of record. Questions again arise 
regarding whether a maximum rating was granted and whether the 
identified private medical records not obtained might have allowed for 
a higher evaluation. There are also situations when the claimant is 
seeking an increased rating and indicates the condition has adversely 
affected employment. This could lead to an inferred claim for 
individual unemployability, which might require additional development 
to establish. However under this new language, the ``benefit sought''--
i.e., increased rating--could be awarded without further development to 
determine whether the veteran should be rated for individual 
unemployability. While our National Service Officers (NSOs) are adept 
in deciphering such claims and thereby address such inferred conditions 
from the outset, we are concerned that claimants without 
representation, and without a strong VA ``duty to assist,'' may receive 
less than they are entitled to under the law. We therefore offer the 
same recommendation as above so that VA's duty to obtain private 
records could only be waived when the ``maximum'' benefit sought, 
including benefits for inferred and secondary conditions, can be 
awarded.
    Section 3 of the bill would also change the standard for VA's 
``duty to assist'' a claimant in developing facts pertinent to a claim, 
which is particularly important for unrepresented claimants. Currently, 
the duty to assist standard requires VA to seek records, ``. . . that 
the claimant adequately identifies to the Secretary and authorizes the 
Secretary to obtain,'' with respect to any private medical records 
identified by a claimant. Under the proposed legislation, the new 
standard would change to, ``. . . if the claimant requests assistance, 
in a manner prescribed by the Secretary.'' (Emphasis added.) This 
seemingly subtle change in language could create a new regulatory 
process that significantly shifts the burden for obtaining private 
records from VA to veterans. While we believe that the intent of this 
provision is to reduce unnecessary development for private records that 
do not materially impact VA's decisions on claims, we are concerned 
that it could create too great a burden on veterans. Oftentimes, a 
claimant does not have the physical or financial means to obtain 
private medical records.
    The bill also calls for new regulations to ``. . . encourage 
claimants to submit relevant private medical records . . . if such 
submission does not burden the claimant.'' We agree with the idea of 
encouraging veterans to fully participate in supporting their own 
claims; in fact, DAV's NSOs make this a routine practice. However, we 
do not believe that VA needs to open a new regulatory process to do so 
since current law does not prohibit VA from ``encouraging'' veterans to 
submit the most fully developed claims possible; a goal we share with 
VA.
    Finally, DAV has serious trepidations about inserting language into 
Section 5103A of title 38 to allow a claimant to waive all or part of 
VA's duty to assist requirements. As with many of the changes proposed 
in this legislation, we are particularly apprehensive about 
unrepresented veterans who may not have the knowledge or expertise to 
fully understand the likely ramifications of agreeing to such a waiver. 
Moreover, it is not clear how VA would seek to use such waiver 
authority. For example, would VA try to get veterans to ``waive'' its 
duty to assist obtaining private records in exchange for a faster 
decision? With so much emphasis on ``breaking the back of the 
backlog,'' could this become a tool to speed claims through the system, 
even if veterans may not receive the full benefits to which they are 
entitled? Until such questions are answered, we would have grave 
concerns about creating such waiver authority.
    Mr. Chairman, we agree with the goal of preventing unnecessary 
overdevelopment of claims and we have proposed and supported 
legislation to ensure that private medical evidence be provided due 
deference. Too often, VA orders a medical examination even when a 
veteran has submitted recent and competent private medical evidence. 
Furthermore, we believe VA must be required to accept properly 
completed Disability Benefits Questionnaires (DBQs) from private 
treating physicians, and that those private treating physicians must be 
allowed to file DBQs electronically. We would welcome the opportunity 
to work with you and others on the Committee, in concert with our 
colleagues in the veterans' community, to craft comprehensive 
legislation to achieve our shared goals.
    H.R. 2388, the Access to Timely Information Act, would codify 
certain procedural steps that VA must follow in response to information 
requests from certain members of the Veterans' Affairs Committees of 
the House and Senate. While DAV does not have a resolution on this 
matter, we are not opposed to enactment of this legislation.
    H.R. 2243, the Veterans Employment Promotion Act, would modify 
Section title 38, United States Code, section 4212(d) requiring the 
Department of Labor (DOL) to publicly report via the Internet the 
information contained in the VETS-100 or VETS-100A reports submitted 
annually by Federal contractors to DOL.
    Currently, the DOL Veterans' Employment and Training Service (VETS) 
monitors the reporting requirements of the Vietnam Era Veterans' 
Readjustment Assistance Act (VEVRAA) of 1974, requiring Federal 
contractors and subcontractors alike to annually report the number of 
veteran employees in their workforces by various categories as 
specified under the affirmative action provisions of VEVRAA. Those with 
Federal contract of $25,000 or more, that were entered into before 
December 1, 2003, file a VETS-100 report while those with Federal 
contract of $100,000 or more, that were entered into on or after 
December 1, 2003, file a VETS-100A report. The database is used by 
contracting officers to expeditiously verify reporting compliance and 
by DOL to monitor whether contractors are meeting their goals as set 
forth in their affirmative action plans. While DAV does not have a 
resolution on this particular matter, we are not opposed to enactment 
of this legislation.
    Finally Mr. Chairman, regarding the draft legislation to improve 
the electronic health information systems and capabilities of the 
Department of Defense (DoD) and the VA; if enacted, this legislation 
would amend title XVI of Public Law 110-181 (the ``Wounded Warrior 
Act'') by sharpening requirements on, and strengthening the functions 
of, an office established by that Act at section 1635 whose purpose is 
to implement a fully interoperable electronic health record to serve 
both departments. This bill would elevate the organizational position 
of the existing office as a shared appendage of the Office of the 
Secretaries of Defense and VA, strengthen its responsibilities under 
existing law and give it new responsibilities and accountabilities to 
ensure a joint VA-DoD electronic health record is put in place, and 
that it accomplishes its essential purposes of documenting a veteran's 
lifelong relationship to government health care.
    As we have consistently urged time and again in The Independent 
Budget (IB), including the IB for fiscal year 2012 (``The Continuing 
Challenge of Caring for War Veterans and Aiding them in Their 
Transition to Civilian Life,'' page 78), both DoD and VA need to 
accelerate progress in implementing a joint health record that is 
accessible to each agency, and to the active duty personnel and 
veterans about whom health records are maintained. Along with our 
partner organizations in the IB, we believe the absence of a joint 
records system stymies seamless transition, serves as a barrier to 
rehabilitation and recovery, and prevents some veterans from gaining 
the benefits and services they have earned through their sacrifice and 
loss.
    While we agree with the principles of this draft legislation and 
commend its author for proposing it, we are concerned that giving the 
joint office broad acquisition authority for major electronic records 
systems may clash with the preexisting authority Congress granted to 
the VA Office of Information Technology in Public Law 109-461 
(including many of the same responsibilities as outlined in this bill 
for the joint office). Therefore, should this draft legislation 
advance, we recommend the Subcommittee conduct a study as to its 
potential unintended effects on the basic functions and authority 
Congress intended for VA's Chief Information Officer.
    Mr. Chairman, this concludes my testimony and I would be happy to 
answer any questions the Subcommittee may have. Thank you.

                                 <F-dash>
   Prepared Statement of Ryan M. Gallucci, Deputy Director, National
   Legislative Service, Veterans of Foreign Wars of the United States
    Mr. Chairman and members of this committee, on behalf of the 2.1 
million members of the Veterans of Foreign Wars of the United States 
and our Auxiliaries, the VFW would like to thank this Committee for the 
opportunity to present its views on these bills.

H.R. 2383, Modernizing Notice to Claimants Act

    H.R. 2383 seeks to do four things: Allow VA to communicate with 
claimants electronically; provide the Veterans Claims Assistance Act 
(VCAA) notice, or duty to assist, to veterans during the application 
period; stop sending duty to assist notices for subsequent claims if 
available evidence substantiates said claim; and allow VA to rate a 
claim without duty to assist notifications if evidence available can 
award the benefit sought by the veteran. All of these provisions are 
intended to reduce the average days awaiting development. Currently, 
the average period of time is more than 45 days, meaning veterans' 
claims sit idle, waiting to be developed, while duty to assist 
notifications are mailed, received and responded to.
    The VFW agrees that to reduce the backlog and to make the average 
length of claim meet the Secretary's 125-day mandate steps must be 
taken to reduce delays that occur due to statutory requirements when a 
viable alternative is available. However, the VFW insists that any 
changes made must not have a negative effect on veterans.
    The VFW views the idea of allowing VA to communicate with veterans 
electronically positively. Many veterans conduct business via email and 
web-based portals. Providing this choice will grant veterans the option 
to use this efficient form of communication. This form of communication 
will also be beneficial as VA moves forward with its electronic-based 
filing system. However, this new method of communication may not be 
considered the most expeditious means to the veteran; therefore, it 
must be requested by the veteran and not mandated by VA.
    Informing veterans of VA's duty to assist at the application phase 
of the claims process does two things: It reduces the time it takes for 
a claim to go to development, and it allows veterans to be proactive in 
providing evidence to VA to substantiate their disability claim. The 
VFW has three chief concerns with placing the duty to assist notice 
with the application. First, depending on how the duty to assist notice 
is presented to veterans, the burden to gather private medical records 
could be shifted to the veteran. Although the statutory burden would 
still rest on VA, veterans could infer that the burden rests on them. 
Any changes to the duty to assist notification must be in plain, easy-
to-understand language that informs the veteran what type of evidence 
is needed to substantiate claims and that the ultimate burden to 
collect medical evidence belongs to VA.
    Second, the VFW wants to ensure that any changes to when the duty 
to assist notice is provided will not have a negative effect on the 
veteran's effective date of the claim. Currently, when VA receives a 
complete or substantially complete claim application, VA stamps it with 
an effective date, marking when the veteran's compensation or pension 
date begins. Under this proposal, veterans may spend weeks and months 
collecting their medical evidence based on VA's encouragement to 
veterans to collect their own records. This will negatively affect 
veterans by making their effective date later. Any changes to when the 
duty to assist is provided must include a clear, easy-to-follow process 
in the instructions of the VA Form 21-526 to initiate an informal 
claim, providing an immediate effective date.
    Third, the VFW is concerned that by placing the duty to assist 
notification at the beginning of the process, the veteran will not be 
notified of VA's receipt of the claim. By virtue of the current 
process, veterans are notified by VA with the duty to assist letter. 
Now veterans will be waiting and wondering if VA has received their 
claim and started processing. The VFW suggests that if the provisions 
moving duty to assist to the application phase are implemented, a 
notification of receipt must be sent to the veteran. The VFW agrees 
that VA does not need to send a second duty to assist notification for 
subsequent claims when the evidence necessary to substantiate the claim 
is sufficient to rate.
    The VFW's last point of contention is in regard to Section 2, 
paragraph 5 of the bill. Under current regulation and based on legal 
precedent, VA must assume that the veteran is seeking the maximum 
benefit allowed for the disability. To ensure precedent established by 
the Court of Veterans Appeals applies to new regulation regarding duty 
to assist, the VFW suggests that this bill language be amended to read 
``this section shall not apply to any claim or issue where the 
Secretary may award the benefit sought based on the evidence of record 
when the maximum benefit allowed can be awarded.''
    The VFW must reiterate that veterans can neither have burden 
shifted to them, nor shall any changes in regulation harm a veteran's 
ability to receive the most complete and accurate claim possible. The 
VCAA was developed to protect veterans and any changes to this act to 
expedite the claims process must not come at the expense of veterans. 
For the VFW to support any changes to current law, our above concerns 
must first be satisfied.

H.R. 2243, Veterans Employment Promotion Act

    The VFW supports the intent of this bill, insofar as the Department 
of Labor must make a concerted effort to ensure that Federal 
contractors and subcontractors are complying with affirmative action 
mandates to employ veterans within their companies. However, the VFW 
believes that steps must also be taken by DOL to ensure that 
contractors are meeting their obligations through the current VETS-100 
filing system, and hold contractors responsible for failure to comply.
    Though the VETS-100 form is mandatory for contractors to conduct 
business with the Federal Government, auditing procedures currently are 
not in place for DOL to verify outreach efforts and veteran employment 
figures reported by Federal contractors. The VFW welcomes working with 
the Committee to develop further plans to hold contractors accountable 
for their reports through the VETS-100 system to ensure that veterans 
actually have the opportunities they have earned and that Federal 
contractors have reported.
    In the last year, DOL and other Federal agencies have made a 
concerted effort to ensure that veterans have an opportunity to enter 
the Federal workforce. The VFW believes that the DOL also has an 
obligation to ensure that those who do business with the Federal 
Government are held to a similar high standard.

H.R. 2388, Access to Timely Information Act

    The VFW supports this legislation. H.R. 2388 would expedite 
information requests from VA to the House and Senate VA Committees by 
clarifying in law that all requests are ``covered'' for purposes of 
administrative procedure on records maintained on individuals, and is a 
permitted disclosure under HIPAA regulations. It also stipulates that 
the VA must send the Chairman of the Committee any information that is 
also sent to another Member of the Committee when acting as a designee 
of the Chairman or Ranking Member. We agree that it could assist the 
Committee in their work, and we thank the Chairman for his efforts.

H.R. 2470, Ensuring Servicemembers' Electronic Records' Viability Act

    The VFW supports this legislation, which would give the Department 
of Defense and the Department of Veterans Affairs a better chance of 
implementing an electronic health information system that meets current 
and future challenges by modifying the Department of Defense-Department 
of Veterans Affairs Interagency Program Office to redefine its mission.
    Working together, the two departments have achieved some success in 
creating a system that would make all personal health records bi-
directional and fully electronic, with the ability to update and edit 
where needed. However, much more work needs to be done before such a 
system would be fully operational and deployed for the use of all 
relevant employees and contractors. Each of these key features--bi-
directional, fully electronic, and editing capability for both 
departments when needed--must be part of the final health and service 
record-keeping solution. It must also not be rendered ineffective by 
onerous and unnecessary privacy concerns. Turf battles, institutional 
preference for existing solutions, and aversion to change have 
needlessly slowed down this process. At this point, human behaviors and 
constructs are causing more problems than technical limitations, and we 
find that to be completely unacceptable.
    This bill will put DoD and VA in a position to make serious 
progress toward implementation of a state-of-the-art electronic health 
record. By making it clear in that the joint office must be the single 
point of accountability and authority, and that it has the sole 
responsibility for finishing the job and sustaining the capability into 
the future, there can be no more obfuscating who is responsible for 
successes, and who is responsible for failures. By ensuring that all 
reporting out of the office is done by an official not lower than a 
Deputy Secretary, this bill communicates the importance of the task at 
hand. By obligating both organizations to have a dedicated line item 
for funding the joint office, this bill ensures that both departments 
are fully at the table, and are fully sharing responsibility. We 
believe these are commonsense steps. This problem is truly larger than 
either department and they must work together to bring forward a 
solution that meets the challenge and is a scalable platform that can 
more easily adapt to future innovations.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or the Members of the Committee may have.

                                 <F-dash>
           Prepared Statement of the Veterans' Employment and
               Training Service, U.S. Department of Labor
    Chairman Johnson, Ranking Member Donnelly, and Members of the 
Subcommittee: The Department of Labor (DOL) is pleased to provide you 
with this statement on pending legislation.
    President Obama and Secretary Solis are committed to ensuring that 
the men and women who serve this country have the employment support, 
assistance and opportunities they deserve to succeed in the civilian 
workforce. As a result, the Administration has undertaken initiatives 
to train, transition and employ Veterans; encouraged the Federal hiring 
of Veterans; and called upon the private sector to hire and employ 
America's Veterans.
    The Veterans' Employment and Training Service (VETS) at DOL is 
playing an important role in these and other initiatives by providing 
Veterans and transitioning servicemembers with resources and expertise 
to assist and prepare them to obtain meaningful careers, maximize their 
employment opportunities and protect their employment rights. Moreover, 
VETS programs are an integral part of Secretary Solis's vision of 
``Good Jobs for Everyone,'' and her commitment to help Veterans and 
their families get into the middle class and maintain financial 
stability.
    This hearing is focused on four bills before the Committee: H.R. 
2383, H.R. 2243, H.R. 2388 and Draft legislation. I will limit my 
remarks to H.R. 2243, the ``Veterans Employment Promotion Act,'' which 
would fall under the Secretary of Labor's (the Secretary) jurisdiction. 
The Department of Veterans' Affairs (VA) would administer the remaining 
legislation and we defer to the VA with respect to those bills.
          H.R. 2243, the ``Veterans Employment Promotion Act''
    The Vietnam Era Veterans' Readjustment Assistance Act of 1974 
(VEVRAA), as amended, 38 U.S.C. 4212, currently requires that certain 
Federal contractors and subcontractors (hereafter, ``contractors'') 
file a VETS-100 and/or VETS-100A report \1\ annually to the Secretary 
that contains certain statistical data on their workforce, including 
the number of employees and new hires who belong to the categories of 
Veterans protected under the statute.\2\ H.R. 2243 would modify title 
38, United States Code, section 4212(d) to require DOL to publicly 
disclose via the Internet information contained in the VETS-100 or 
VETS-100A reports submitted annually by Federal contractors to DOL.
---------------------------------------------------------------------------
    \1\ VETS promulgated two sets of regulations to implement the 
reporting requirements under VEVRAA. The regulations in 41 CFR Part 61-
250 requires contractors with a Federal contract or subcontract of 
$25,000 or more that was entered into prior to December 1, 2003 and has 
not been modified to provide information on the number of covered 
Veterans in their workforces by filing a completed VETS-100 Report 
annually. The regulations at 41 CFR Part 61-300 implement the Jobs for 
Veterans Act (JVA) amendments to the reporting requirements under 
VEVRAA, and require Federal contractors and subcontractors with a 
contract or subcontract of $100,000 or more awarded or modified on or 
after December 1, 2003, to file a VETS-100A Report.
    \2\ For instance, Federal contractors completing the VETS-100A 
Report are to provide information on the number of employees and new 
hires during the reporting period who are: (1) Disabled Veterans; (2) 
Veterans who served on active duty in the U.S. military during a war or 
campaign or expedition for which a campaign badge is awarded; (3) 
Veterans who, while serving on active duty in the Armed Forces, 
participated in a United States military operation for which an Armed 
Forces service medal was awarded pursuant to Executive Order 12985; and 
(4) Recently separated Veterans (Veterans within 36 months from 
discharge or release from active duty).
---------------------------------------------------------------------------
    DOL supports enactment of this legislation. In our view, providing 
public access to the information contained in VETS-100/VETS-100A 
reports is consistent with the President's commitment to openness and 
transparency in government, and supports the Secretary's ``Good Jobs 
for Everyone'' initiative. Qualified Veterans seeking employment may 
find the information contained in the VETS-100A Reports useful in 
targeting their job search, by helping them to identify Federal 
contractors who employ or have recently hired Veterans with similar 
skill sets. Moreover, by making information contained in these reports 
publicly available, H.R. 2243 will encourage Federal contractor 
compliance. However, the Department would want to work with Congress, 
the contractor community and others to ensure the appropriate treatment 
of proprietary or other confidential or protected information.
    Every day, we are reminded of the tremendous sacrifices made by our 
servicemen and women, and by their families. One way that we can honor 
those sacrifices is by providing them with the best possible services 
and programs our Nation has to offer. Secretary Solis and VETS strongly 
believe that Veterans deserve the chance to find good jobs.
    I again thank this Subcommittee for your commitment to our Nation's 
Veterans and for the opportunity to testify before you.

                                 <all>

</pre></body></html>
